Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 1 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 1 of 28

[PUBLISH]
P

1*-

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-13426

D.C. Docket No. l:16-cr-00355-MHC-JSA-l

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
DARIUS TAUREAN CALDWELL,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of Georgia
(June 24, 2020)
Before JORDAN, TJOFLAT and HULL, Circuit Judges.
HULL, Circuit Judge:
After a jury trial, Darius Caldwell appeals his convictions for five armedbank-robbery and firearm offenses arising from his armed robberies of: (1) a Noa

Case l:l6-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 2 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 2 of 28

Bank branch in Doraville, Georgia, on August 24, 2016; and (2) a Bank of
America (“BOA”) branch in Smyrna, Georgia, on September 7,2016. Caldwell
contends that the district court erroneously denied his motions: (1) to suppress
evidence of a BOA teller’s out-of-court identification; (2) for judgment of acquittal
on the BOA armed-robbery count; and (3) for a new trial based on the improper
admission of DNA testimony.. After review and with the benefit of oral argument,
we affirm.
I. FACTUAL BACKGROUND
A.

Noa Bank Robbery on August 24, 2016
The government proved the Noa Bank robbery by eyewitness testimony and

videos and still images from surveillance cameras inside the Noa branch and a'
nearby store. On August 24, 2016, around 1:00 or 2:00 p.m,, a black male wearing
a cloth mask tied in the back entered the Noa branch. The robber pointed a
handgun at the employees and customers, approached the teller with the handgun
now aimed at the teller, ordered the teller to put money on top of the counter, and
put the money into a bag. The robber was in the bank for approximately one
minute and escaped on foot.
The eyewitnesses—the teller and two other employees—described the robber as short, providing heights between 5 feet 3 inches and 5 feet 8 inches.
They provided no other details about the robber’s race, build, clothing, bag, or
i

2

t
€

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 3 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 3 of 28

handgun. One employee testified that the robber’s hair was curly and black;
another described the robber’s mask as “dark”; yet another said the mask was
green, khaki, and red, but admitted that she was not focusing on the mask’s colors.
Assigned to the case, FBI Special Agent Matt Winn reviewed the
surveillance videos and still images. Agent Winn testified that: (1) the robber wore
a dark gray, inside-out t-shirt, dark-colored pants or jeans, dark shoes, and a blue
and white bandana covering his face; and (2) the robber carried a black or darkcolored bag, used a silver and black automatic handgun, and had a short afro and a
high hairline. The surveillance videos and still images confirmed these details.
The Noa Bank robber was not caught until another robbery occurred.
B.

BOA Robbery on September 7, 2016
About two weeks later, the BOA Smyrna branch was robbed. The

government proved the BOA robbery by: (1) eyewitness testimony; (2) recordings ’
of the 911 calls; (3) videos and still images from a surveillance camera inside the
BOA branch; and (4) evidence about Caldwell’s arrest near the robbery scene and
within ten feet of a bag containing his bandana, wig, handgun, about $4,000, and a
GPS tracker.
The modus operandi of the BOA robbery was the same as the Noa Bank
robbery. On September 7, 2016, at approximately 10:07 a.m., a black male entered
the BOA branch and approached the teller, Kathryn Crist, who was with a
3

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 4 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 4 of 28

customer. The man placed a bag on the counter, pointed a handgun at the
customer’s face and then at teller Crist’s face, while standing only two feet away
from Crist, and ordered Crist to put money in the bag. Crist complied and placed
over $3,000 in the bag along with a GPS tracking device. The robber was in the.
bank for approximately one minute and escaped on foot.
At trial, Crist and her customer testified that the robber, a black male, wore a •
black or dark-colored, inside-out t-shirt with a Steelers’ logo on it, blue jeans, a
wig or something unnatural on his head, and a blue or blue and white bandana
covering his face. The surveillance video and still images confirmed these details.
Officers, who later reviewed the video and still images, testified that the robber’s
wig appeared to be in a dreadlock style and that his jeans had a white mark on the
lower left calf. Teller Crist focused on both the robber and his handgun pointed at
her. Crist testified that the robber was approximately 5 feet 9 inches tall with a
slight-to-medium build. The customer described the robber as “not a tall person.”
Crist and her customer testified, and the surveillance video and still images
confirmed, that the robber’s bag was black and that his handgun was silver/gray
and black.
Police were already on the way when the robber entered the BOA branch
because employees of a nearby State Farm office had called 911 after seeing a man
with a handgun crouching in the bushes and facing the BOA branch.. The State
4

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 5 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 5 of 28

Farm employee who called 911 told the dispatcher that the man had “dreads”; was
wearing a black shirt, blue jeans, and black shoes; and was putting on a blue
bandana mask. At trial, the employee and her coworker testified to this same
description, except that the employee did not mention the robber’s “dreads,” and
her coworker stated that the robber’s bandana was blue and white and that he
appeared to be wearing a large wig. Based on the State Farm 911 call, the 911
dispatcher called the BOA branch and spoke with Crist. Crist told the 911
dispatcher that the robber was a black man; was about 5 feet 9 inches tall with a
slight build; dressed in black and wore a blue bandana on his face; possibly wore a
hat; and carried a black bag and a handgun. After the two calls, the 911 dispatcher
gave police this description: a black male with “dreads,” wearing a black t-shirt,
blue jeans, black shoes, and a blue bandana over his face, carrying a black bag and
a handgun.
The GPS tracker, which teller Crist dropped into the robber’s bag, led
officers to a cul-de-sac on Glen Pointe Way, located-less than a quarter mile from
the BOA branch. Approximately ten minutes after the robbery—with-the help of a
homeowner on the cul-de-sac who saw a man with a black bag in his backyard
the officers discovered Caldwell crouched on the side of a house On Glen Pointe
Way.
At the time, Caldwell was wearing clothing that matched the robber’s: a
5

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 6 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 6 of 28

black or dark-colored, inside-out Steelers t-shirt, jeans with a white mark on the
rear of the left leg, and dark-colored shoes. According to one officer, Caldwell’s
eyebrows and forehead also matched the robber’s.
Between 10:18 and 10:20 a.m., Caldwell was detained, handcuffed, and'
placed into a patrol car. Around 10:31 a.m., the officers found a black bag hidden
in the bushes approximately ten feet from where Caldwell was found crouching:
Officers testified, and body camera footage and still images confirmed, that the bag
contained a black dreadlock wig, a blue and white bandana fashioned into a mask,
a loaded silver and black handgun, about $4,000, and a GPS tracker.
Detective William Turner drove teller Crist to where police had found
Caldwell to conduct a show-up identification. Crist told Detective Turner that she
had seen the robber’s face only from the bandana up and did not know if she could
give a “spot-on identification.”
Around 10:35 to 10:40 a.m., officers removed a handcuffed Caldwell from ,
another patrol car and faced him toward Crist. Crist could not remember whether
the man was handcuffed. Crist confirmed to Detective Turner that Caldwell
appeared to be the same sex, height, build, race, and skin tone as the robber, and

'While Caldwell did not have “dreads,” the officers were not concerned because the
“dreads” had appeared to be a wig. Although Caldwell had tattoos, and the dispatch description
said nothing about tattoos, the surveillance video and still images did show “shading” on the
robber’s arms, albeit not clearly depicted tattoos.
6

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 7 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 7 of 28

wore a similarly dark-colored t-shirt, although Caldwell was not wearing a wig or
anything on his head. While Crist could point out similarities between Caldwell
and the robber, Crist could not positively identify him as the robber at that time.
Caldwell was 31 years old, 5 feet 8 inches tall, and 160 pounds with a slightto-medium build. FBI Agent Winn immediately recognized Caldwell as the
possible perpetrator of the Noa branch robbery two weeks prior. The FBI arrived
and took custody of Caldwell. FBI agents sent evidence to the FBI lab for DNA
testing, including the black bag and its contents (the bandana, wig, and handgun).
The FBI retrieved DNA from Caldwell.
C.

FBI Agent’s Testimony
' Based on the surveillance videos and still images, Agent Winn testified

about the similarities between Caldwell (who was arrested for the BOA robbery)
and the earlier Noa Bank robber. Caldwell and the Noa robber were the same sex,
race, build, and height; had the same high hairline and short-cut hairstyle; wore
similar clothing and a seemingly identical blue and white bandana; and used a
similar looking black bag and silver and black automatic handgun. In-both
robberies, the robber carried his handgun in a “strange manner” by wrapping all
four fingers and the thumb around the grip of the handgun, below the trigger guard,
instead of placing the index finger on the trigger or on or above the trigger guard.
Erica Ames, an FBI forensic examiner and DNA analyst, also testified. In
7

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 8 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 8 of 28

her DNA report, Agent Ames compared Caldwell’s DNA to the mixtures of DNA
on the bandana, wig, and handgun recovered after the BOA robbery. Agent Ames.
explained that, from DNA comparisons, examiners can draw three types of
conclusions: inclusion, exclusion, and inconclusive. FBI examiners generate a

>

statistic—called a “likelihood ratio”—that “helps give weight to [their]
conclusions.” A likelihood ratio is “a mathematical comparison of two different
explanations for the DNA evidence” that “supports the strength of the inclusion.”
FBI examiners also provide a verbal description of how strong the support for
inclusion is at a given ratio.
Agent Ames testified that the bandana revealed a mixture of DNA from
three males, and Caldwell was included as a possible contributor.to that DNA •

, '

mixture with a likelihood ratio of 700 billion. Because the likelihood ratio was so
high, Agent Ames concluded that “Caldwell was the source of one of the
contributors of the mixture from the bandana.”
The wig revealed a mixture of male and female DNA from three individuals,
and Caldwell was included as a possible contributor to that DNA mixture with a
likelihood ratio of 480,000. Agent Ames concluded that there .was “very strong support that Mr. Caldwell is a contributor to the mixture on the wig.” The handgun
revealed a mixture of male and female DNA from four individuals, and Caldwell
was included as a possible contributor with a likelihood ratio of 4.6 million: Agent
8

Case 1:16-cr-00355-MHC-JSA Document 186' Filed 06/24/20 Page 9 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 9 of 28

Ames concluded that there was “extremely strong support that Mr. Caldwell is a
contributor to the mixture from the . . . pistol.”
Defense counsel extensively cross-examined Agent Ames on, among other
things, her methods in calculating the likelihood ratios. Defense counsel
introduced most of Agent Ames’s case file, including her report, which similarly
stated her conclusions. On re-direct, Agent Ames confirmed her conclusions as to
each piece of evidence.
D.

FDIC Insurance
The government also introduced evidence of BOA’s insurance with the

Federal Deposit Insurance Corporation (“FDIC”). The government’s witness was
William Anderson, BOA’s Vice President of Corporate Security for ten years and
custodian of its FDIC records. Anderson testified that BOA had been FDICinsured since 1999, that it was insured at the time of the September 7,2016*
robbery of the BOA branch, and that it was currently insured.
The government also admitted a copy of BOA’s FDIC insurance certificate,
a document that Anderson testified was maintained by BOA in the regular course
of business. The certificate states that the FDIC certifies that:
[T]he deposits of each depositor in
BANK OF AMERICA, NATIONAL ASSOCIATION
CHARLOTTE
NORTH CAROLINA
are insured to the maximum amount provided by the'Federal Deposit
Insurance Act.
9

Case l:l6-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 10 of 29
Case: 18-13426• Date Filed: 06/24/2020
Page: 10 of 28

The certificate was dated July 23, 1999, which Anderson said signified that BOA
has been FDIC-insured since that date and was still in coverage. Anderson
explained that BOA would have been notified if the FDIC canceled its insurance
coverage after July 23, 1999, and that BOA never received any cancellation notice.
Anderson further testified that BOA was required to make quarterly insurance
payments to keep its FDIC coverage current, that BOA made those payments, and
that its FDIC insurance has never lapsed.
On cross-examination, defense counsel attempted to establish that the FDIC
certificate was for Bank of America, National Association (“BOA N.A.”) only and
did not cover individual BOA branches. However, Anderson testified that: (1) the
FDIC certificate lists BOA N.A., the corporate headquarters located in Charlotte,
North Carolina; (2) there are bank branches underneath BOA N.A., but the
branches are not separately chartered; (3) the BOA N.A. charter covers all assets in
its “consumer space, which would be [all] financial centers,” he. all BOA
branches; (4) all of BOA N.A.’s assets and branch institutions fall under its FDIC
certificate; and (5) BOA would not be able to operate its branches otherwise.
On redirect, Anderson reiterated that BOA’s FDIC insurance included the
specific Smyrna BOA branch and testified that each branch does not have to obtain
separate insurance. Anderson testified that he did not need any documentation '
other than the FDIC certificate to show that BOA’s branches had FDIC insurance
10

Case 1:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 11 of 29
Case: 18-13426' Date Filed: 06/24/2020
Page: 11 of 28

coverage. Anderson’s testimony, including that all BOA branches were covered,
was based on his personal knowledge and experience at the bank and information
provided by the FDIC.
The government also introduced evidence of Noa Bank’s FDIC-insured
status, including its FDIC certificate for “NOA BANK DULUTH GEORGIA. »2
Judy Allen, Noa’s FDIC compliance manager and records custodian, testified
that the FDIC certificate was issued to Noa Bank as a corporation, headquartered
in Duluth. Allen stated that the FDIC insurance for Noa Bank: applied to all its
branches, including the Doraville branch. Allen explained that, in general:
(1) FDIC insurance “is provided to the bank itself’ as a corporation (whether it
“ha[s] five branches or twenty-five branches”) and “covers all the deposits of the
bank”; (2) FDIC certificates “do[] not expire” and “do[] not have to be renewed”
once issued; and (3) FDIC certificates “stay[] in effect unless . .. revoked by the
FDIC.” While Noa Bank’s FDIC certificate was issued in 2008, Allen testified
that it was still in effect at the time of the August 24, 2016 robbery of the Noa
branch.

2On appeal, Caldwell does not challenge the sufficiency of the FDIC-insured evidence as
to the Noa branch. Further, at trial, Caldwell stipulated that, as of September 7, 2016, he was a
convicted felon.
1
11

Case l:16-cr-00355-MHC-JSA Document 186 . Filed 06/24/20 Page 12 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 12 of 28

II. PROCEDURAL HISTORY
A.

Indictment
In January 2018, a superseding indictment charged Caldwell with: (I) two

counts of armed bank robbery, in violation of 18 U.S.C. § 2113(a) and (d) (Counts
1 (Noa Bank) and 3 (BOA)); (2) two counts of brandishing a firearm during and in
relation to a crime of violence; in violation of 18 U.S.C. §. 942(c) (Counts 2 and.4);
and (3) one count of being a felon in possession of a firearm, in violation of 18
U.S.C. § 922(g)(1) (Count 5).
B.

Motion to Suppress Crist’s Identification Testimony
Caldwell moved to suppress any identification testimony based on BOA

teller Crist’s out-of-court identification. He asserted any such testimony was

/ %

tainted by an unduly suggestive and unreliable show-up identification procedure.
At a hearing on the motion,-the government called Crist, Detective Turner, Agent
Winn, and two other officers to testify regarding the robber’s description, the
police’s arrest of Caldwell and discovery of the bag, the show-up procedure, and
the officers’ review of the surveillance videos and stillimages. The witness
testimonies at the hearing largely matched those at trial. The government and
Caldwell then filed post-hearing briefs.
In a report, the magistrate judge recommended that Caldwell’s motion to
suppress be denied because the identification process was not unduly suggestive,
12

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 13 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 13 of 28

and, in any event, the identification was still sufficiently reliable. The magistrate
judge highlighted that Crist had close visual contact with the robber, the show-up
occurred just over 30 minutes later, Crist explained the batsis of her identification,
her description of the robber matched Caldwell, Crist acknowledged that she could
not see the robber’s entire face, and she identified Caldwell based on other
characteristics she observed. Over Caldwell’s objections, the district court adopted
the magistrate judge’s recommendation and denied Caldwell’s motion to suppress.
C.

Jury Trial, Rule 29 Motion, and Convictions
After three days of evidence, the government rested, and Caldwell moved

for a judgment of acquittal under Federal Rule of Criminal Procedure 29. Caldwell
argued, inter alia, that there was insufficient evidence that: (1) he was the robber in
either the Noa or BOA robbery; or (2) the BOA branch was FDIC-insured at the
time of the robbery. The district court denied the Rule 29 motion. Presenting no evidence, the defense rested. The jury found Caldwell guilty of all five charges. '
D.

Sentencing
The district court determined that Caldwell’s total offense'level of 24 and

criminal history category of VI yielded an advisory guidelines range of 100 to 125
months’ imprisonment on the two armed-robbery convictions in Counts 1 and 3 •
and the felon-in-possession conviction in Count 5. The firearm-brandishing
conviction in Count 2 carried a mandatory consecutive term of 7 years’
13

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 14 of 29
Case:'18-13426 Date Filed: 06/24/2020
Page: 14 of 28

imprisonment. The second firearm-brandishing conviction in Count 4 carried,a"
mandatory consecutive term of 25 years’ imprisonment.
The district court sentenced Caldwell to: (1) one day of imprisonment on the
armed-robbery and felon-in-possession convictions, to be served.concurrently;
(2) 84 months on the first-firearm-brandishing conviction, to be served
consecutively to all other counts; and (3) 300 months on the second firearm-

:

brandishing conviction, to be served consecutively to all other counts. On appeal,
Caldwell does not challenge his sentence.
E.

. Motion for New Trial
In November 2018, while Caldwell’s appeal was pending, the defense •

received a letter from the FBI disclosing issues with Agent Ames’s testimony
regarding the likelihood ratios as to the wig and handgun. The disclosure stated
that Agent Ames deviated from the recommended language for describing the
meaning and significance of likelihood ratios when discussing the likelihood ratios
for: (1) the wig on direct examination; (2) the handgun on redirect examination;
and (3) a hypothetical case on direct examination. For example, Agent Ames •
testified that .“the DNA profile from the wig is 480,000 times more likely that Mr.Caldwell and two unknown, unrelated individuals are contributors as opposed to
originally from three unknown individuals.” However, she should have stated that
“the DNA profile from the wig is 480,000 times more likely if Mr. Caldwell and
14

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 15 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 15 of 28

two unknown, unrelated individuals are contributors as opposed to if they
originated from three unknown individuals.” The disclosure stated: “This subtle
difference technically changes the meaning.”
Caldwell moved for a new trial, pursuant to Federal Rule of Criminal
Procedure 33(a), based upon the “newly discovered evidence” that Agent Ames
“had testified erroneously regarding the likelihood that [] Caldwell was a
contributor of DNA to the handgun . . . and the wig.”3
The district court denied Caldwell’s motion for a new trial. The district
court catalogued all of the non-DNA evidence against Caldwell and found that “the
jury had overwhelming non-DNA evidence that Caldwell robbed the Bank of
America” and “significant non-DNA evidence that Caldwell also robbed the Noa
Bank.” The district court concluded that the newly discovered evidence did not
affect the outcome of the trial and would not probably produce a new result. This
is Caldwell’s appeal.
in. MOTION TO SUPPRESS
Caldwell argues that the district court erroneously denied his1 motion to
suppress the identification evidence obtained from Detective Turner’s show-up '

3There were no deviations as to the bandana, and Caldwell does not challenge Agent
Ames’s testimony in that regard. Agent Ames’s explanation for that item was simply that a
likelihood ratio of 700 billion was high enough to conclude that Caldwell was the source of one
of the contributors of the DNA mixture.
15

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 16 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 16 of 28

procedure with BOA teller Crist.4
“This Court employs a two-step analysis in assessing the constitutionality of
a trial court’s decision to admit an out-of-court identification.” United States v.
Diaz, 248 F.3d 1065, 1102 (11th Cir. 2001). We must consider: (1) “whether the
original identification procedure was unduly suggestive”; and, if so, (2) “whether,
under the totality of the circumstances, the identification was nonetheless reliable.”
Id. To determine the identification’s reliability, we consider: (1) the eyewitness’s
opportunity to view the suspect; (2) her degree of attention; (3) the accuracy of her
description; (4) her level of certainty; and (5) the length of time between the crime
and her identification. Id. (citing Neil v, Biggers, 409 U.S. 188, 199-200, 93 S. Ct.
375, 382 (1972)).
Here, even assuming the show-up identification was unduly suggestive, the
district court did not clearly err in alternatively finding that the identification was
sufficiently reliable.5 First, even if only for less than a minute, BOA teller Crist.

4When reviewing the denial of a motion to suppress evidence, this Court reviews the
district court’s factual findings for clear error and its legal rulings de novo. United States v.
Laist, 702 F.3d 608, 612 (11th Cir. 2012). In doing so, we construe the facts in the light most
favorable to the party that prevailed below—here, the government. Id. We will not overturn a
district court’s factual findings unless “our review of the record leaves us with the definite and
firm conviction that a mistake has been committed.” United States v. White. 335 F.3d 1314,
1319 (11th Cir. 2003) (quotation marks and citation omitted). At trial, Crist made no in-court
identification. The issue on appeal is Crist’s out-of-court identification.
5Caldwell’s arguments largely focus on the first prong of the two-step analysis: that
show-up identifications are “inherently suggestive” and that the officers aggravated the
suggestiveness of the identification. Because the district court did not clearly err in finding that
16

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 17 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 17 of 28

had close visual contact with the robber, who was only two feet away and
separated by only the counter. Second, Crist testified that she was focused on the
robber (as well as the handgun) during the robbery. Her detailed description of the
robber confirms her focus on the robber’s appearance.
Third, Crist’s description of the robber—a black male, approximately 5 feet
9 inches tall with a slight-to-medium build, wearing a black or dark-colored,
inside-out t-shirt with a Steelers’ logo On it and blue jeans—matched Caldwell’s
appearance at the time of his arrest. Crist’s further descriptions—that the robber
wore a wig or something unnatural on his head, covered his face with a blue
bandana, carried a black bag, and used a black and silver/gray handgun—also
matched the black bag and its contents that officers found less than ten feet from
Caldwell upon arrest. Crist’s description of the robber also matched the robber’s
appearance in the surveillance video and still images, as well as descriptions by
other eyewitnesses and officers.
Fourth, although teller Crist testified that she could not positively identify
Caldwell as the robber at the show-up, she was able to confirm that he appeared to
be the same sex, height, build, race, and skin tone as the robber, and that he wore a
similarly dark-colored t-shirt. Fifth, Crist’s show-up identification-of Caldwell

teller Crist’s identification was nonetheless reliable, we need not, and do not,- address whether or
not the show-up identification here was unduly suggestive.
17

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 18 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 18 of 28

occurred just over .30 minutes after the robbery. Accordingly, almost all the Neil
factors weigh heavily in favor of the reliability of Crist’s identification. See Neil,
409 U.S. at 199-200, 93 S. Ct. at 382; Diaz. 248 F.3d at 1102.
Moreover, while Caldwell focuses on a handful of shortcomings in Crist’s
identification, defense counsel thoroughly cross-examined Crist on these matters-at
trial.6 The rest was for the jury to weigh and decide. See Simmons v. United
States. 390 U.S. 377,384, 88 S. Ct. 967, 971 (1968) (“The danger that use of the
[pretrial identification] technique may result in convictions based on
misidentification may be substantially lessened by a course of cross-examination attrial which exposes to the jury the method’s potential for error.”).
Based on the totality of the circumstances and our consideration of the Neil ; .
factors, we conclude that the district court did not clearly err in finding that teller
Crist’s identification was sufficiently reliable and in allowing the government to
introduce Crist’s out-of-court show-up identification. See Diaz, 248 E;3d at 1102.
IV. MOTION FOR JUDGMENT OF ACQUITTAL ON COUNT 3
Next, Caldwell contends that the district court erred in denying his motion

6Namely, Caldwellchallenges: (1) Crist’s less-than-one-minute opportunity to view the *
robber, who was masked and stood behind a tall counter; (2) Crist’s degree of attention to the
•
robber’s face since she was also looking at the handgun and/or down at the register; (3) the
details of Crist’s description, only some of which related to immutable characteristics; (4) the
lack of certainty in Crist’s identification; and (5) Crist’s far distance from Caldwell at the showup. Defense counsel’s cross-examination of Crist revealed to the jury the majority of these
“shortcomings.”
;
.■ ‘
'

?

18

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 19 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 19 of 28

for a judgment of acquittal as to Count 3 because the government failed to prove
that the BOA branch was FDIC-insured at the time of the September 7, 2016
robbery.7
“To establish federal jurisdiction and to prove a violation of [§] 2113, the
Government must show that the bank was insured by the FDIC at the time of the
robbery.” .United States v. Maner. 611 F.2d 107, 108 (5th Cir. 1980).8 Over the
past fifty years, this Court has accepted “sparse” FDIC-insurance evidence from
the government as sufficient. See United States v. Brown. 616 F.2d 844,-848 (5th
Cir. 1980) (listing cases and explaining that, while, “[a]s in a number of cases
decided by this Court, the government’s proof of federal insurance was sparse,”
“[sjparse evidence . . . can be enough”).
Ideally, the government would proffer proof of contemporaneously held
FDIC insurance, or at least FDIC insurance held both before and after the time of
the offense. United States v. Munksgard, 913 F.3d 1327, 1332-33 (11th Cir.
2019). However, “[i]n Cook v. United States. 320 F.2d 258 (5th Cir. 1963), we Set
a low threshold of proof of insurance for appellate review.” Maner. 611 F.2d at

7This Court reviews de novo the denial of a Rule 29 motion for judgment of acquittal.
United States v. Albury. 782 F.3d 1285, 1293 (11th Cir. 2015). “When the sufficiency of the
evidence is challenged, we view[] the evidence in the light most favorable to the verdict, and
draw all reasonable inferences and credibility choices in the verdict’s favor.” Id.'('quotation
marks omitted).
8This Court adopted as binding precedent all Fifth Circuit decisions prior to October 1,
1981. Bonner v. City of Prichard. 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc).
19

Case l:l6-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 20 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 20 of 28

109. In each case after Cook, we have found the government’s evidence to be
sufficient. Id For example, in Maner, the government introduced: (1) a copy of
the bank’s FDIC certificate issued five years before the offense; (2) a bank
officer’s testimony that the certificate was a record maintained under his
supervision in the bank’s regular course of business; and (3) another employee’s
testimony that he had seen a 15-year-old certificate in the bank vault and copies of
that certificate posted on each teller’s window. Id. at 108. The Fifth Circuit held
that the government’s proof of FDIC insurance was “just barely” sufficient. Id. at
112.
Soon thereafter, the Fifth Circuit determined that, “[i]n Maner, we reached.
the nadir of the acceptable level of proof.” United States v. Platenburg, 657 F.2d . 797, 800 (5th Cir. 1981). In Platenburg, the government introduced solely a copy
of the bank’s FDIC certificate issued seven years before the offense, nothing more.
Id. The Fifth Circuit’s prior decisions upholding the adequacy of the evidence
usually had the FDIC certificate—even if not always current—as well as the
testimony of bank officials—even if “less than conclusive as to the insured status
at the time of the illegal acts.” Id at 799-800. Because the seven-year-old v
certificate was unaccompanied by any evidence that it was still current, the Fifth
Circuit held that the government had finally crossed the line from sufficiency to
insufficiency. Id. at 799.
20

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 21 of 29
Case: 18-13426
Date. Filed: 06/24/2020
Page: 21 of 28

More recently, in Munksgard. the government introduced: (1) a copy of the
bank’s FDIC certificate issued in 1990, over 20 years before the offenses; (2) a
. bank employee’s testimony that the bank was currently FDIC-insured at the time
of trial in 2016; and (3) that same employee’s testimony that he worked at the
small bank for 25 years and the bank was not required to renew its FDIC certificate
“every so often:” 913 F.3d at 1330, 1333. This Court determined that, “given our
precedent, what the government presented here was good enough” because it
provided (1) “prior existence” of FDIC insurance in 1990, (2) “subsequent
existence” of FDIC insurance in 2016, and (3) testimony about how the bank did
not need interim renewals that provided additional evidence that the bank was •
insuredat the time of the 2013 and 2014 offenses. Id. at 1333. Viewing this proof
in the light most favorable to the verdict, “[c]oupled with the ‘universal
presumption [from Cook] that all banks are federally insured,’” this Court
concluded that a reasonable juror could find beyond a reasonable doubt that the
bank was FDIC-insured on the dates of the offenses. Id. (quoting Maner. 611 F.2d
at 110).
Significantly, here, there was more evidence than in Munksgard and Maner.
For sure, the government introduced a copy of BOA N.A.’s FDIC certificate issued
in 1999,>17 years before the 2016 robbery. But the government also called two
witnesses: (1) Anderson, who had been BOA’s Vice President of Corporate
21

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 22 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 22 of 28

Security for ten years and was familiar with its administration and operations; and
(2) Allen, who was Noa’s FDIC compliance manager and records custodian.
Anderson testified that: (1) BOA NA.’s FDIC certificate was a record maintained
under his supervision in BOA’s regular course of business; (2) that FDIC
certificate covered all BOA financial centers and branches, including this BOA
branch; (3) there was no requirement for each branch to obtain separate FDIC
insurance; (4) BOA was FDIC-insured at the time of the 2016 robbery; (5) BOA
was current on its quarterly payments to maintain its insurance; (6) there was no
indication that BOA’s insurance had ever lapsed; (7) BOA never received a
cancellation notice; and (8) BOA was currently covered by its FDIC certificate at
the time of trial in 2018. Similarly, Allen testified that, in general: (1) FDIC ■ ;
insurance is provided to the bank itself as a corporation and covers all the bank’s
deposits; (2) FDIC certificates do not expire and do not need to be renewed once
issued; and (3) FDIC certificates stay in effect unless and until revoked.
Given all of this evidence, viewed in the light most favorable to the
government, “[c]oupled with the ‘universal presumption !.. that all banks are federally insured,”’ a reasonable jury could find beyond a reasonable doubt that the
\

BOA branch was FDIC-insured at the time of the 2016 robbery. See Munksgard,
913 F.3d at 1330-33: Maner. 611 F.2dafl08, 110, 112.
Contrary to Caldwell’s arguments, the bases of Anderson’s personal
22

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 23 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 23 of 28

knowledge were fleshed out at trial, revealing his ten years as BOA’s Vice
President of Corporate Security, his additional role as FDIC records custodian, and
his institutional knowledge of BOA’s FDIC history and records. Defense counsel
thoroughly cross-examined Anderson on the bases of his personal knowledge and
even elicited Anderson’s concession that he did not bring to trial any other
documents supporting the BOA branch’s coverage in 2016. Any discrepancies in
Anderson’s testimony would be “for the jury to resolve.” See Maner, 611 F.2d at
110 (“Once the evidence was properly before them, the conclusions to be drawn
from the evidence were for the jury to make.”). Both Anderson and Allen testified
a bank’s FDIC certificate is provided to the bank/corporation itself and applies to
all branches.
Caldwell also ignores that there was more evidence in his case than in
Munksgard. See 913 F.3d at 1330, 1333. In Munksgard, the government’s
evidence—beyond prior and subsequent existence of FDIC insurance—was solely
testimony that the bank did not need interim renewals of its FDIC certificate., See
id. In contrast, here, the government’s evidence went much further than that in
Munksgard. The government introduced Anderson’s and Allen’s testimonies
that FDIC certificates generally do not expire and do not need to be renewed, BOA
was current on its quarterly payments to maintain its FDIC insurance, and there
was no indication of any cancellation of or lapse in BOA’s FDIC coverage. ,
23

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 24 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 24 of 28

Anderson also expressly testified that BOA was FDIC-insured at the time of the
2016 robbery.9
For all of these reasons, the district court did not err in denying Caldwell’s
Rule 29 motion for judgment of acquittal on Count 3.
V. MOTION FOR NEW TRIAL
Caldwell also challenges the district court’s denial of his motion for a new
trial based on the “newly discovered evidence” showing three instances in which
Agent Ames’s DNA testimony deviated from the FBI’s recommended language
regarding likelihood ratios.
Upon a defendant’s Rule 33 motion, “the court may vacate any judgment
and grant a new trial if the interest ofjustice so requires.” Fed. R. Crim. P. 33. To
show entitlement to a new trial based on newly discovered evidence, a movant
must establish that: (1) the evidence was discovered after trial; (2) the movant’s
failure to discover the evidence was not due to his lack of diligence; (3) the
evidence is not merely cumulative or impeaching; (4) the evidence is material; and
(5) the evidence is of such a nature that a new trial would probably produce a

9Without acknowledging this Court’s binding decisions in Cook. Maner. and Munksgard.
Caldwell cites a Sixth Circuit decision. See United States v. Sandies. 469 F.3d 508 (6th Cir.
2006). Unlike the Sixth Circuit case, the government here introduced testimony—beyond prior
and subsequent existence of insurance—that BOA’s FDIC certificate had not lapsed or expired,
did not need to be renewed, and was still in effect at the time of the 2016 robbery. Not only is
this evidence sufficient under our Circuit’s binding precedent, but it also appears to be sufficient
under the Sixth Circuit’s Sandies case.
24

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 25 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 25 of 28 '

different result. United States v. Stahlman. 934 F.3d 1199, 1230 (11th Cir.), cert.
denied.

U.S.__, 140 S. Ct. 530 (2019). In evaluating a Rule 33 motion, while

“a district court may weigh the evidence and consider the credibility of the
witnesses,” it “may not reweigh the evidence and set aside the verdict simply
because it feels some other result would be more reasonable.” Butcher v. United
States, 368 F.3d 1290, 1297 (11th Cir. 2004) (quotation marks omitted). Rather, to
grant a Rule 33 motion, the evidence must “preponderate[] heavily against the
verdict, such that it would be a miscarriage ofjustice to let the verdict stand.”
United States v. Alburv. 782 F.3d 1285, 1295 (11th Cir. 2015) (quotation marks
omitted).
The district court found that Caldwell failed to meet the fifth prong. We
agree, which obviates our need to consider the other four prongs. Specifically,
Caldwell has not shown that the new evidence about Agent Ames’s testimony on
likelihood ratios would probably produce a different outcome. See Stahlman. 934
F.3d at 1230. For starters, those three deviations did not impact other aspects of . .
Agent Ames’s testimony. Even without the likelihood ratios, Agent Ames opined
that Caldwell was a contributor to the DNA mixtures on the bandana, wig, and
handgun; that he was in fact the source of the DNA on the bandana; and that there
was “very strong support” and “extremely strong support” that he was a
contributor on the wig and the handgun, respectively. Caldwell does not challenge
25

Case l:l6-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 26 of 29
Case: 18-13426 Date Filed: 06/24/2020
Page: 26 of 28

these opinions. Thus, even without the likelihood-ratios, Agent Ames provided
other measures from which the jury could conclude that Caldwell’s DNA was on
the bandana, wig, and handgun.
Additionally, as the district court found, there was ample non-DNA evidence
supporting Caldwell’s guilt as to both robberies. Even without the DNA evidence,
the jury had overwhelming evidence that Caldwell was the robber of the BOA
branch. Indeed; about ten minutes after the robbery, the GPS tracker led law
enforcement to the cul-de-sac where Caldwell was found hiding behind a home
less than a quarter mile from the BOA branch and about ten feet from a black bag
containing the bandana, wig, handgun, money, and GPS tracker.
Further, according to eyewitness and law enforcement testimony,
surveillance video, and still images, Caldwell’s physical characteristics and
clothing matched those of the BOA robber—a black male who was 5 feet 8 inches
tall and 160 pounds with a slight-to-medium build; wore a black or dark-colored,
inside-out t-shirt with a Steelers’ logo on it, blue jeans with a white mark on the
rear of the left leg, and dark-colored shoes; and had a high hairline. This same
evidence showed that Caldwell’s bag and its contents also matched those of the
robber—a black bag containing a dreadlock wig, a blue and white bandana
fashioned into a mask, a loaded silver and black handgun, about $4,000 in
currency, and the GPS tracker that led the police to him. While Caldwell did not
26

Case l:16-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 27 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 27 of 28

have “dreads,” that discrepancy was explained by the dreadlock wig in his bag.
And while eyewitnesses did not mention Caldwell’s tattoos and the surveillance
video and still images did not clearly show tattoos, the remaining matching
characteristics, as well as the GPS tracking and the physical items found ten feet
from him, heavily outweigh this discrepancy.
Likewise, even without the DNA evidence, the jury also had more than
ample evidence that Caldwell was the robber of the Noa branch. To begin with,
the surveillance videos and still images showed that in both robberies the robber
was a black male with a similar build, height, and high hairline. More importantly,
there were other critical similarities in the robber’s clothing, handgun, bag, and
modus operandi. In fact, in both robberies, the robber: (1) wore a dark-colored,
inside-out t-shirt, dark-colored pants or jeans, and dark shoes; (2) covered his face
with a blue and white bandana; (3) carried a black or dark-colored bag; (4) used a
silver and black automatic handgun that he held in a strange manner, by wrapping
all four fingers and the thumb around the grip of the handgun, below the trigger
guard; and (5) entered the branch, walked right to the counter, pointed his handgun
at the teller, demanded money, had the money placed in his black bag, and escaped
on foot less than one minute later.10 The physical evidence found after the BOA

10Although the Noa robber did not wear a dreadlock wig, he had a short-cut hairstyle that
matched Caldwell’s hairstyle upon arrest (after he was no longer wearing the dreadlock wig).
27

Case l:l6-cr-00355-MHC-JSA Document 186 Filed 06/24/20 Page 28 of 29
Case: 18-13426
Date Filed: 06/24/2020
Page: 28 of 28

robbery was consistent with the video, still images, and descriptions of the t-shirt,
bandana, bag, and handgun present in the Noa Bank robbery. Given the strong
proof that Caldwell was the BOA robber, these similarities, along with the videos
and still images, proved Caldwell robbed the Noa branch too.
In sum, even without the DNA evidence,11 the jury had more than sufficient
evidence that Caldwell robbed both the BOA and Noa branches. Accordingly, the
district court did not abuse its discretion in denying Caldwell’s Rule 33 motion for
a new trial.
VI. CONCLUSION
Caldwell has not shown that the district court erred, clearly erred, or abused
its discretion in denying his motions to suppress, for a judgment of acquittal, or for
a new trial. We affirm Caldwell’s convictions.
AFFIRMED.

’We recognize the district court found the DNA evidence was not merely cumulative.
Nevertheless, we point out that the DNA evidence tended to show solely that Caldwell’s DNA
was on the bandana, wig, and handgun, but those three items were found in the black bag ten feet
from Caldwell upon his arrest ten minutes after the BOA robbery. The time sequence and
physical proximity of those items to Caldwell alone sufficiently showed that those three items
were Caldwell’s and were used by him in that robbery. Thus, to some extent, the DNA evidence
was cumulative.
28

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 1 of 22

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
United States of America
Criminal Action No.

v.
Darius Taurean Caldwell

1:16-CR-355-MHC-JSA

RESPONSE TO DEFENDANT'S MOTION FOR NEW TRIAL
The United States of America, by Byung J. Pak, United States Attorney, and
Bret R. Hobson, Assistant United States Attorney for the Northern District of
Georgia, files this response to Defendant Darius Caldwell's motion for new trial
based on supposedly newly discovered evidence.
Introduction
Months after a jury convicted Mr. Caldwell in connection with two armed
bank robberies, the FBI Lab conducted a routine transcript review of the
testimony that its experts gave at the trial. During this review, the FBI found
three instances where its DNA expert had deviated from recommended language
by using the word "that" instead of "if," which was preferred, when explaining
the meaning of "likelihood ratios." Although the deviations were minor and not
considered an error, the Government promptly notified Mr. Caldwell of the
deviations out of an abundance of caution. Mr. Caldwell then moved for a new
trial, claiming the expert's supposedly "erroneous" testimony constitutes newly
discovered evidence that entitles him to a new trial. (Doc. 172.)

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 2 of 22

Mr. Caldwell's motion fails for at least three reasons. First, the minor
deviations were not even erroneous. Second, the expert's trial testimony cannot
constitute newly discovered evidence, because Mr. Caldwell could have
discovered, understood, and explored the deviations at trial. After all, the
expert's report, which Mr. Caldwell himself entered into evidence, correctly
phrased the meaning of the likelihood ratios, and Mr. Caldwell heard the expert
replace "if" with "that" a few times in her testimony. Third, and perhaps most
importantly, the deviations did not affect the outcome of the trial, particularly in
light of the overwhelming independent evidence of Mr. Caldwell's guilt.
Accordingly, this Court should deny Mr. Caldwell's motion.
Background
On April 12, 2018, a jury in the Northern District of Georgia found Mr.
Caldwell guilty of two counts of armed bank robbery, two counts of brandishing
a firearm during and in relation to a crime of violence, and one count of being a
felon in possession of a firearm. (Doc. 113; Doc. 115.) The jury rendered its
guilty verdict after hearing testimony from numerous witnesses, including the
two tellers who were robbed (Doc. 1621 at 64-108; Doc. 164 at 147-51), other
victims who were present in the banks during the robberies (Doc. 162 at 108-19;
Doc. 164 at 136-42; Doc. 164 at 142-47), responding officers (Doc. 163 at 26-67, 6796,115-17,117-38), the FBI case agent (Doc. 163 at 138-232), and an FBI DNA
expert (Doc. 164 at 53-127). The jury also viewed surveillance footage from both
1 The four volumes of the trial transcript are docket entries 162,163,164, and
165.
2

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 3 of 22

robberies (Doc. 117-1; Doc. 117-6; Doc. 117-7) and bodycam footage from Mr.
Caldwell's arrest behind a house near the bank shortly after the second robbery
(Doc. 117-4; Doc. 117-5; Doc. 117-8). In addition, the jury examined several items
of physical evidence, including the clothing Mr. Caldwell wore at the second
robbery (see Doc. 162 at 153-71) and the bag, gun, wig, and bandana mask found
near Mr. Caldwell after the second robbery (see Doc. 162 at 119-27,148-53). The
testimony and evidence established the following.
A. Bank of America Robbery
On September 7, 2016, at approximately 10:07 a.m., a black male robbed a
Bank of America in Smyrna, Georgia. (See, e.g., Doc. 162 at 64-84,109-15.) The
lone robber was wearing a dark-colored inside-out Steelers t-shirt, jeans with a
white mark on the lower left calf, a dreadlock wig, and a blue and white bandana
fashioned into a mask. (See, e.g., Doc. 117-1; Doc. 119-8; Doc. 119-9; Docs. 119-30
through 119-35; Doc. 162 at 69-70, 82-84, 90-91,101-02.) Under the wig, the
robber appeared to have a somewhat distinctive high forehead. (See, e.g., Doc.
119-9.) He carried a silver and black handgun, which he stuck in the teller's face,
and a black gym bag with a shoulder strap. (See, e.g., Doc. 119-9.) The teller
described the robber as approximately 5' 9" tall with a slight to medium build,
and a victim customer testified that the robber was "not a tall person." (Doc. 162
at 70,102, 111.) The robber was in the bank for only approximately one minute
and escaped on foot after forcing the teller to load up his bag with the bank's
money. (See generally Doc. 117-1; Doc. 162 at 70-71, 75-76.)

3

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 4 of 22

Police were already on the way when the robber entered the bank because
witnesses in a nearby State Farm office had called 911 after seeing the robber
crouching in the bushes, putting on his bandana mask, and preparing to rob the
bank. (Doc. 162 at 119-22; Doc. 163 at 7-14,18-21; Doc. 117-2; Doc. 117-3.) The
teller placed a GPS tracking device into the robber's bag along with the stolen
money. (See, e.g., Doc. 162 at 71-72.)
Approximately ten minutes after the robbery, with the help of a homeowner,
responding police officers discovered Mr. Caldwell hiding on the side of a house
less than a quarter mile from the bank. (See, e.g., Doc. 163 at 36-45; Doc. 117-4;
Doc. 117-5; Doc. 117-8.) At the time, Mr. Caldwell was crouched down next to a
chimney, and he was wearing clothing that matched the robber's, including what
appeared to be the same dark-colored inside-out Steelers t-shirt and the same
jeans with a white mark on the rear of the left leg. (See, e.g., Doc. 163 at 49-50, 5354; Doc. 117-4; Doc. 117-5; Doc. 117-8; Doc. 119-13; Doc. 119-16; Docs. 119-61
through 119-65.)
Tucked into the bushes approximately ten feet from where Mr. Caldwell was
hiding was a black gym bag with a strap. (See, e.g., Doc. 163 at 78-82, 98-99,10304,120-22; Docs. 119-17 through 119-21.) In the bag was a dreadlock wig, a blue
and white bandana fashioned into a mask, a loaded silver and black handgun,
%

and all of the stolen money, including the GPS tracker. (See, e.g., Doc. 163 at 80,
122-27; Docs. 119-22 through 119-29.)
A detective drove the teller to where police had found and detained Mr.
Caldwell, and the teller confirmed that Mr. Caldwell appeared to be the same
4

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 5 of 22

sex, height, build, and skin tone as the robber with a similarly colored t-shirt.
(Doc. 162 at 93-97; Doc. 163 at 107-10.) Mr. Caldwell was approximately 5' 8" tall
and 160 pounds, with a slim-to-medium build. (See Doc. 163 at 171-72.) Mr.
Caldwell had a fairly short haircut and a somewhat distinctive high
forehead/hairline. (See Doc. 119-13; Doc. 119-16; Docs. 119-37 through 119-40;
Doc. 163 at 190-91, 207-08.)
Later that day, the FBI arrived and began leading the investigation. The FBI
took custody of the evidence and sent several items to the FBI lab for DNA
testing, including the bandana, wig, and gun that officers had found in the gym
bag. (Doc. 163 at 129,148-52,182-83.) The FBI also took custody of Mr. Caldwell.
(See Doc. 163 at 171.) Upon first encountering Mr. Caldwell, the lead FBI agent
immediately recognized him as the possible perpetrator of another strikingly
similar armed robbery that had occurred two weeks earlier. (Doc. 163 at 141-47,
185-87,190-91.)
B. NOA Bank Robbery
In that earlier robbery at NOA Bank in Doraville, Georgia, a black male
robber hesitated outside for a bit and then entered the bank alone. (See Doc. 1176; Doc. 117-7; Doc. 164 at 136-42,142-45,147-49.) Fie was wearing a dark-colored
inside-out t-shirt, jeans, and a blue and white bandana fashioned into a mask.
(See Doc. 117-6; Doc. 117-7; Doc. 163 at 207-08.) Although he did not wear a wig
as in the later robbery, he had a short haircut and a somewhat distinctive high
forehead/hairline that matched Mr. Caldwell's. (See Doc. 117-6; Doc. 117-7; Doc.
163 at 207-08.) The robber carried a silver and black handgun, which he stuck in
5

Case l:l6-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 6 of 22

the teller's face, and a black gym bag with a shoulder strap. (See Doc. 117-6; Doc.
117-7; Doc. 163 at 207-08.) He was in the bank for only approximately one
minute and escaped on foot after forcing the teller to load up his bag with the
bank's money. (See Doc. 117-6; Doc. 117-7; Doc. 164 at 147-49.) Witnesses
described the robber as fairly short. (Doc. 164 at 141,150.) The robber's sex,
height, weight, build, skin tone, haircut, and forehead/hairline appeared to
match Mr. Caldwell's, and the robber's modus operandi, clothing, bandana
mask, and gun appeared to match those from the later Bank of America robbery.
(See, e.g., Doc. 163 at 190-91.)
C. Expert DNA Testimony Regarding Evidence Collected Following the
Bank of America Robbery
At trial, the Government presented expert testimony from an FBI DNA
examiner regarding her comparison of Mr. Caldwell's DNA to the mixtures of
DNA found on the bandana, wig, and gun that were recovered within feet of
where officers found Mr. Caldwell hiding after the Bank of America robbery.
(See Doc. 164 at 53-127.) The examiner explained that there are three types of
conclusions that examiners can draw from such DNA comparisons: exclusion,
inclusion, and inconclusive. (Id. at 72.) She further explained that FBI examiners
generate a statistic, called a "likelihood ratio," that "helps give weight to our
conclusions." (Id. at 73.) She described a likelihood ratio as "basically a
mathematical comparison of two different explanations for the DNA evidence."
(Id.) The higher the ratio, the stronger the support for a conclusion of
"inclusion." (See id.) She explained that FBI examiners also provide a verbal
6

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 7 of 22

description of how strong the support for inclusion is at a given ratio. (See id. at
73-74.)
With respect to the bandana, the examiner concluded that "Mr. Caldwell was
included as a possible contributor to the DNA" - that is, she reached a
conclusion of "inclusion." (Id. at 75.) She testified that the likelihood ratio
exceeded 700 billion. (Id.) For a verbal description of how strong this support
for inclusion was, she explained that because the ratio exceeded this 700 billion
threshold, which is approximately 100 times the population of the Earth, she was
able to state "that Mr. Caldwell was the source of one of the contributors of the
mixture from the bandana." (Id.)
With respect to the wig, the examiner again concluded that Mr. Caldwell was
"included as a possible contributor to the DNA." (Id.) She reported that "[t]he
likelihood ratio that was calculated from that was 480,000." (Id.) She then
explained, "[s]o that means that the DNA profile from the wig is 480,000 more
likely that Mr. Caldwell and two unknown, unrelated individuals are
contributors, as opposed to originally from three unknown individuals." (Id.)
She continued, "[s]o that provides very strong support that Mr. Caldwell is a
contributor to the mixture on the wig." (Id.)
With respect to the pistol, the examiner again concluded that Mr. Caldwell
was "included as a possible contributor to the mixture." (Id.) She reported that
"the likelihood ratio that was calculated from that was 4.6 million." (Id. at 75-76.)
She then explained, " [s]o that means that the DNA that I obtained from the
Smith & Weston pistol was 4.6 million times more likely if Mr. Caldwell and
7

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 8 of 22

three unknown, unrelated individuals are contributors, as opposed to if they
originated from four unknown, unrelated individuals." (Id. at 76.) She
continued, "[s]o that provides extremely strong support that Mr. Caldwell is a
contributor to the mixture from the Smith & Wesson pistol." (Id.)
Defense counsel then thoroughly cross-examined the Government's DNA
expert, exploring, among other things, the basic principles of DNA profiling, the
science underlying it, the statistical analysis of mixtures of DNA, and the
computer program that the FBI uses to assist such statistical analysis. (See id. at
77-124.) Defense counsel specifically cross-examined the expert regarding the
likelihood ratios she found and how the software generated those statistics. (See
id. at 107-17,122-23.) Defense counsel introduced most of the expert's case file
into evidence, including her report, which stated her conclusions as follows for
each of the three pieces of evidence she tested:
• Bandana: "CALDWELL is the source of one of the contributors to the DNA
obtained from [the bandana]." (Doc. 120-14 at 3.)
• Wig: "The DNA typing results for [the wig] are at least 480,000 times more
likely if they originated from CALDWELL and two unrelated unknown
individuals than if they originated from three unrelated unknown
individuals. This analysis provides very strong support that CALDWELL is a
contributor to the DNA obtained from [the wig]." (Id. at 3-4.)
• Pistol: "The DNA typing results for [the pistol] are at least 4.6 million times
more likely if they originated from CALDWELL and three unrelated
unknown individuals than if they originated from four unrelated unknown
individuals. This analysis provides extremely strong support that
CALDWELL is a contributor to the DNA obtained from [the pistol]." (Id. at
4.)

8

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 9 of 22

The expert's report also explained a number of methods and limitations that
applied to the results/conclusions, and it provided a chart showing what range
of likelihood ratios correlated with what qualitative equivalent level of support
for inclusion. (See id. at 5.)
On re-direct, the expert restated her conclusions. (Doc. 164 at 124-126.)
Regarding the bandana, she testified that she had "determined that Mr. Caldwell
was included as a possible contributor to that mixture." (Id. at 125.) She stated
that the likelihood ratio "exceeded 700 billion" and noted that this number is "a
hundred times the population of the Earth." (Id.) She continued, "[s]o I
concluded that Mr. Caldwell was the source of one of those contributors to the
bandana." (Id.)
Regarding the wig, she testified that she had "determined that Mr. Caldwell
was a possible contributor to be [sic] that mixture as well." (Id.) She explained
that "the likelihood ratio calculated from that was 408,000 [sic]." (Id.) And she
further explained, "[s]o that means that the DNA from the wig was 480,000 times
more likely if Mr. Caldwell and two unknown, unrelated individuals or [sic]
contributors than if they originated from three unknown, unrelated individuals."
(Id.) She continued, "that provides a very strong support that Mr. Caldwell is a
contributor to the DNA from the wig." (Id.)
Regarding the pistol, she testified that she had determined that "Mr. Caldwell
was included as a possible contributor of that mixture." (Id. at 125-26.) She
explained that "[t]he likelihood ratio[] I calculate[d] from that was 4.6 million."
(Id. at 126.) She further explained, "[s]o that means that the DNA from the gun is
9

Case l:l6-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 10 of 22

4.6 million times more likely that Mr. Caldwell was a contributor of three
unknown, unrelated contributors as opposed to if they originated from four,
unknown, unrelated contributors." (Id.) She continued, "that provides
extremely strong support that Mr. Caldwell is a contributor to the DNA that I
obtained from the Smith & Wesson pistol." (Id.)
D.

The FBI Lab's Post-Trial Review of Its DNA Examiner's Testimony

Approximately seven months after trial, on November 14, 2018, the FBI's
Forensic Science Law Unit notified the undersigned AUSA, via email and an
attached letter, that the FBI Lab had reviewed the transcript of the DNA
examiner's trial testimony in this case. (See Exs. 1 and 2, attached hereto.) The
email and letter explained that this internal quality assurance review identified
three statements by the examiner about the meaning of likelihood ratios that the
Department of Justice considered "minor deviation[s] from recommended
language." (Ex. 1.) Specifically, the letter noted three instances of the examiner
using the word "that" when the word "if" was recommended. (Ex. 2.)
The letter explained, "[f]or example, a likelihood ratio of 1000 means the DNA
results are 1000 times more likely if the person of interest is a contributor than if
an unknown, unrelated individual is a contributor, not that it is 1000 times more
likely that the individual is a contributor to the DNA evidence rather than an
unknown, unrelated individual." (Id.) The letter noted that " [tjhis subtle
difference technically changes the meaning." (Id.) Although the examiner had
used "if," as recommended, throughout her report and twice in her trial

10

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 11 of 22

testimony (see Doc. 120-14; Doc. 164 at 76, 125),2 the transcript review found three
times that the expert deviated from recommended language and used "that":
once when describing the meaning of likelihood ratios generally, once when
describing the meaning of the likelihood ratio applicable to the wig, and once
when describing the meaning of the likelihood ratio applicable to the pistol. (Ex.
2; see also Doc. 164 at 73, 75,126.)
The FBTs email noted that the FBI Lab had recently changed a process and
thereafter observed "several instances where examiners have deviated from the
recommended language." (Ex. 1.) The email explicitly stated that the deviations
were "not an error," and the letter stated that "while the FBI is unaware whether
the identified deviations from recommended language impacted the outcome of
this proceeding, out of an abundance of caution, we are bringing this to your
attention." (Id.) Moreover, the transcript review did not identify any deviations
from recommended language in the expert's testimony about the bandana. (See
generally Exs. 1 & 2.)

2 The letter acknowledged that the examiner correctly represented the
meaning of likelihood ratios throughout her report by using "if" as
recommended. (Ex. 2; see also Doc. 120-14.) The letter further acknowledged that
the examiner correctly phrased the meaning once in her trial testimony as well,
specifically when she testified about the likelihood ratio applicable to the pistol
on direct examination. (Ex. 2; see also Doc. 164 at 76.) The examiner also correctly
phrased the meaning another time in her trial testimony, specifically when she
testified about the likelihood ratio applicable to the wig on re-direct examination,
but the letter overlooked this instance. (Ex. 2; see also Doc. 164 at 125.)
11

Case l:l6-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 12 of 22

Six days after receiving the FBI's email and letter, the undersigned forwarded
them both to Mr. Caldwell's attorneys. (See Ex 1.)
E. Defendant's Motion for a New Trial Based on Newly Discovered
Evidence
After receiving the FBI's email and letter, Mr. Caldwell filed a motion for a
new trial based on supposedly newly discovered evidence. (See generally Doc.
172.) In his motion, Mr. Caldwell characterizes the FBI DNA expert's trial
testimony as "erroneous," notwithstanding the FBI's clear statement to the
contrary in its email. (Id.

24) Mr. Caldwell then claims that such erroneous

testimony "epitomizes the type of after-acquired evidence facially implicating
the interests of justice" that entitles Mr. Caldwell to a new trial. (Id.)
Argument and Citation of Authority
Mr. Caldwell's motion is without merit. The FBI specifically stated that the
expert's deviations from recommended language were "minor" and "not an
error." Furthermore, the expert's trial testimony cannot constitute newly
discovered evidence. Mr. Caldwell heard the expert's testimony at trial and
knew it deviated from the phrasing in the expert's report, which Mr. Caldwell
himself entered into evidence. Mr. Caldwell was perfectly capable of
understanding the subtle difference between "if" and "that" and exploring the
deviations at trial if they were material. After all, Mr. Caldwell's attorneys
thoroughly cross-examined the DNA expert, including about likelihood ratios in
particular. And perhaps most importantly, the deviations did not affect the
outcome of the trial; the Government presented overwhelming independent
12

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 13 of 22

evidence of Mr. Caldwell's guilt, including DNA testimony about the bandana
(the strongest match) that complied with all FBI phrasing recommendations.
Accordingly, this Court should deny Mr. Caldwell's motion.
More than fourteen days after a jury's guilty verdict, a defendant may seek a
new trial under Rule 33 only if his motion is grounded on newly discovered
evidence. See Fed. R. Crim. P. 33. "Motions for a new trial based on newly
discovered evidence are highly disfavored in the Eleventh Circuit and should be
granted only with great caution. Indeed, the defendant bears the burden of
justifying a new trial." United States v. Campa, 459 F.3d 1121,1151 (11th Cir. 2006)
(en banc) (quoting United States v. Devila, 216 F.3d 1009,1015 (11th Cir. 2000)); see
also United States v. Barton, 909 F.3d 1323,1337 (11th Cir. 2018) (describing such
motions as "an uphill climb" and noting that, "[gjiven the law's interest in
certainty and finality, that the new trial standard is difficult to meet is a feature,
not a flaw; only under limited circumstances should the law disturb the
considered judgments of trial courts and juries after the fact").
To succeed on such a motion, the defendant must establish all of the
following:
(1) the evidence was discovered after trial, (2) the failure of the defendant
to discover the evidence was not due to a lack of due diligence, (3) the
evidence is not merely cumulative or impeaching, (4) the evidence is
material to issues before the court, and (5) the evidence is such that a new
trial would probably produce a different result.

13

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 14 of 22

United States v. Jernigan, 341 F.3d 1273,1287 (11th Cir. 2003) (quoting United States
v. Ramos, 179 F.3d 1333,1336 n.l (11th Cir. 1999)). "The failure to satisfy any one
of these elements is fatal to a motion for a new trial." United States v. Lee, 68 F.3d
1267,1274 (11th Cir. 1995). Here, Mr. Caldwell fails to satisfy any of these
elements.
1. The DNA expert's supposedly erroneous testimony was not newly
discovered after trial.
The FBI DNA expert testified at trial in front of Mr. Caldwell and his
attorneys. At the time, the defense team had a copy of the expert's report, which
correctly phrased her conclusions and the meaning of the likelihood ratios by
consistently using "if" instead of "that." Mr. Caldwell thus knew at trial that the
expert's testimony deviated from her report a few times. The mere fact that Mr.
Caldwell did not believe the deviations were important enough to explore on
cross-examination at the time does not render the testimony newly discovered
after trial.
The only evidence that Mr. Caldwell discovered after trial was the FBI's
assessment of its expert's testimony. But the fact that the FBI considered three
instances of the DNA expert's testimony to be minor deviations from
recommended language cannot sustain Mr. Caldwell's motion because it would
still fail the third, fourth, and fifth elements, as explained more fully below.

14

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 15 of 22

2. Even assuming arguendo that the trial testimony was newly discovered
months after trial, Mr. Caldwell's failure to discover the supposedly
erroneous testimony earlier was due to his own lack of due diligence.
Contrary to Mr. Caldwell's assertions in his motion for a new trial, the
deviations are not "a technically sophisticated series of errors" that are "beyond
the ordinary understanding of the average individual." (See Doc. 172 ^ 29-30.)
Rather, the deviations are linguistic differences from the expert's report that Mr.
Caldwell and his counsel easily could have discovered, understood, and
explored further at trial on cross-examination.
Three times, the expert used the word "that" while testifying about the
meaning of a likelihood ratio when the word "if" was recommended. Basically,
the expert deviated from recommended language and language in her report
three times as follows:
• Stated: a likelihood ratio of X means it is X times more likely that Conclusion
A is true than if Conclusion B is true.
• Recommended: a likelihood ratio of X means it is X times more likely if
Conclusion A is true than if Conclusion B is true.
At most, the former phrasing could subtly suggest that Conclusion A is true,
thereby lending some fraction of weight to Conclusion A beyond the stated
numerical likelihood ratio.
If Mr. Caldwell failed to discover these minor deviations at trial, his failure is
from a lack of due diligence. More likely, Mr. Caldwell realized that the
deviations were so minor and immaterial that he instead chose to focus his
thorough cross-examination on a deeper dive into DNA science and the statistics
15

Case l:l6-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 16 of 22

and computer program underlying the development of the specific likelihood
ratios.
3. Evidence of the FBI's assessment of its expert's testimony is merely
impeaching.
After reviewing the trial transcript, the FBI determined that its DNA expert
deviated from recommended language three times when explaining the meaning
of likelihood ratios. The FBI described these deviations as "minor" and expressly
stated that they were "not an error." Were this information about the FBI's
assessment presented at trial, it would not have changed the expert's conclusions
("inclusion" of Mr. Caldwell as a contributor to the DNA mixtures on the
bandana, wig, and gun), her numbers (likelihood ratios of over 700 billion as to
the bandana, 480,000 as to the wig, and 4.6 million as to the gun), or how she
described the strength of the support for inclusion (Mr. Caldwell was a source of
the DNA on the bandana, and there was very strong support and extremely
strong support that Mr. Caldwell was a contributor to the DNA on the wig and
gun, respectively). Rather, the information about the FBI's assessment would
have merely impeached the expert's testimony by pointing out that she used the
word "that" three times when the word "if" was recommended, which could
subtly change a sentence. Such impeaching evidence does not provide grounds
for a new trial.

16

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 17 of 22

4. Evidence of the FBI's assessment of its expert's testimony is not material to
any issue before the Court.
The fact that the FBI considers three instances of the DNA expert's testimony
to be minor deviations from recommended language does not change a material
fact in evidence before the Court. As noted above, the FBI does not even
consider the deviations to be errors, and the deviations did not change the
expert's conclusions, the values of the likelihood ratios, or the expert's verbal
descriptions of the strength of support that each likelihood ratio provides.
5. Neither highlighting the expert's deviations from recommended language
nor presenting evidence of the FBI's identification of those deviations
would produce a different result at a new trial.
Putting aside for a moment the DNA evidence, the Government presented
overwhelming independent evidence of Mr. Caldwell's guilt. Police captured
Mr. Caldwell approximately ten minutes after the Bank of America robbery
hiding behind a house two streets over from the bank, less than a quarter mile
away. At the time of his capture, Mr. Caldwell was wearing the same distinctive
inside-out dark Steelers t-shirt that the robber could be seen wearing on the
bank's surveillance video. Mr. Caldwell also was wearing the same jeans with a
distinctive white mark on the lower left rear leg that the robber could be seen
wearing on the bank's surveillance video. Mr. Caldwell appeared to be the same
sex, height, weight, build, and skin tone as the robber, and the teller confirmed as
much. A short distance from where officers discovered Mr. Caldwell hiding, a
black gym bag was tucked into the bushes. Inside the gym bag was a blue and
white bandana fashioned into a mask, a dreadlock wig, and a loaded silver and
17

Case l:l6-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 18 of 22

black handgun, all of which matched items seen with the robber on the bank's
surveillance video. Also in the bag was the money stolen from the bank and the
bank's GPS tracker that the teller had included.
When the lead FBI agent first encountered Mr. Caldwell after the Bank of
America robbery, the agent immediately recognized him as the likely perpetrator
of a similar robbery at NOA Bank two weeks earlier. Based on his review of
surveillance video and witness statements, the agent knew that the NOA Bank
robber's modus operandi, clothing, bandana mask, and gun appeared to match
those from the later Bank of America robbery. The agent also knew that the
NOA Bank robber's sex, height, weight, build, skin tone, haircut, and
forehead/hairline appeared to match Mr. Caldwell's. Specifically, the NOA
Bank robber wore a dark-colored inside-out t-shirt, jeans, and a blue and white
bandana fashioned into a mask, just like Mr. Caldwell had at the Bank of
America robbery two weeks later. Although the NOA Bank robber had not worn
a wig, he had a short haircut and a somewhat distinctive high forehead/hairline
that matched Mr. Caldwell's. Like Mr. Caldwell at the Bank of America robbery,
the NOA Bank robber carried a silver and black handgun, and he stuck it in the
teller's face while telling her to load up a black gym bag with a shoulder strap
that he was carrying. Like Mr. Caldwell at the Bank of America robbery, the
NOA Bank robber was in the bank for only approximately one minute and
escaped on foot without an obvious getaway driver in the area. Like Mr.
Caldwell, the NOA Bank robber was a short black male with a slim to medium
build and a short haircut with a high forehead/hairline. Thus, the NOA Bank
18

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 19 of 22

robber's sex, height, weight, build, skin tone, haircut, and forehead/hairline
appeared to match Mr. Caldwell's, and the robber's modus operandi, clothing,
bandana mask, bag, and gun appeared to match those from the later Bank of
America robbery.
Furthermore, not all the DNA testimony even included deviations from
recommended language. Specifically, the results concerning the bandana were
consistently phrased correctly. In the DNA expert's report, which Mr. Caldwell
entered into evidence, and twice in the DNA expert's testimony, the jury heard
that Mr. Caldwell unequivocally was the source of one of the contributors to the
DNA obtained from the bandana. The likelihood ratio was so high, greater than
700 billion, a threshold that is 100 times the Earth's population, that the expert
did not need to explain further.
Moreover, even with respect to the identified deviations concerning the wig
and gun, they were mitigated by other testimony and evidence that correctly
phrased the meaning of the likelihood ratio as to each item. Regarding the wig,
the meaning of the likelihood ratio was phrased correctly two out of three times
the jury saw or heard about it: the expert stated the meaning using the
recommended language in her report, the expert deviated from recommended
language by using "that" instead of "if" on direct, and the expert testified using
the recommended language on re-direct. Regarding the gun, the meaning of the
likelihood ratio was similarly phrased correctly two out of three times the jury
saw or heard about it: the expert stated the meaning using the recommended
language in her report, the expert testified using the recommended language on
19

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 20 of 22

direct, and the expert deviated from recommended language by using "that"
instead of "if" on re-direct.
In addition, the expert consistently followed up any explanation of the
meaning of a likelihood ratio, whether in her report or testimony, by giving a
verbal description of the strength of support: "very strong support" with the wig
and "extremely strong support" with the gun. These descriptions provided the
jurors clear guidance about what weight they should give a particular likelihood
ratio, overcoming any subtle impact that using "that" instead of "if" a few times
could have had.
Informing the jury that the expert deviated from recommended language and
should have used the word "if" instead of the word "that" on a few occasions
simply would not produce a different result at a new trial, particularly in light of
the overwhelming independent evidence of Mr. Caldwell's guilt.

20

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 21 of 22

Conclusion
For the foregoing reasons, this Court should deny Defendant's Motion for a
New Trial.

Respectfully submitted,
BYUNG J. Pak
United States Attorney

/s/Bret R. Hobson
Assistant United States Attorney
Georgia Bar No. 882520
Bret.Hobson@usdoj. gov

600 U.S. Courthouse, 75 Ted Turner Drive S.W., Atlanta, GA 30303
(404) 581-6000 fax (404) 581-6181
21

Case l:16-cr-00355-MHC-JSA Document 176 Filed 04/23/19 Page 22 of 22
i,

Certificate of Service
The United States Attorney's Office served this document today by filing it using
the Court's CM/ECF system, which automatically notifies the parties and counsel
of record.
Paul Monnin
Lauren Tapson Macon
Andrew Townsend Sumner
Alston & Bird, LLP
1201 West Peachtree Street
Atlanta, Georgia 30309
paul.monnin@alston.com
lauren.macon@alston.com
andy.sumner@alston.com
Attorneys for Defendant Darius Taurean Caldwell
April 23, 2019
/s/ Bret R. Hobson
Bret R. Hobson
Assistant United States Attorney

Received
OCT - 7 2020

vr

ARGUMENT AND CITATIONS OF AUTHORITY
I.

The District Court Erred in Denying Appellant’s Motion for New Trial
A.

The FBI DNA Examiner’s Likelihood Ratio Testimony

The government introduced the FBI DNA examiner’s testimony to establish
that, if a likelihood exists that Appellant’s DNA was on the bandana and the
handgun recovered after his arrest for the BOA robbery, and if the jury concluded
that this same bandana and handgun were used in the NOA Bank robbery (for
which no one was arrested), then Appellant committed the NOA Bank robbery. In
other words, Examiner Ames proffered critical evidence of identity regarding the
perpetrator of the NOA Bank robbery when no one had been arrested after that
robbery.
She described a likelihood ratio as “basically a mathematical comparison of
two different explanations for the DNA evidence.” (Doc. 164 at 73). She further
stated that a higher ratio means it is more likely that a known individual
contributed DNA to a mixture of DNA than if an unknown individual was one of
the contributors. Id.
In particular, Examiner Ames offered the following hypothetical to illustrate
the concept of a likelihood ratio:
So, for example, let’s say I have an item of evidence, we swabbed the
handle of a knife and have a DNA profile and then compared that to a
known sample of Erica Ames.

19

If I tested and found that the DNA types were similar, so it’s an
inclusion, and the likelihood ratio, for example, was 1 million. That
would mean that the DNA results from that knife handle were 1
million times more likely that Erica Ames is the contributor as
opposed to . . . from someone unknown or unrelated.
Id. at 73.
This hypothetical was echoed in Examiner Ames’ testimony regarding the
likelihood ratios she offered at trial regarding Appellant’s contribution of DNA to
the mixtures of DNA the FBI collected from the wig and the handgun:
,

From the wig, I obtained a mixture of male and female DNA from
three individuals. The likely - and I concluded that Mr. Caldwell was
a possible contributor and be included as a possible contributor to
DNA from the wig. The likelihood ratio that was calculated from that
was 480,000.
So that means that the DNA profile from the wig is 480,000 times
more likely that Mr. Caldwell and two unknown, unrelated individuals
are contributors, as opposed to originally from three unknown
individuals.
* * *

[With regard to] [t]he DNA from the gun[], I obtained a mixture of
male and female DNA again. This time, it was a mixture of four
individuals and Mr. Caldwell was included as a possible contributor to
that mixture.
The likelihood ratio[] I calculate from that was 4.6 million. So that
means that the DNA from the gun is 4.6 million times more likely that
Mr. Caldwell was a contributor of three unknown, unrelated
contributors as opposed to if they originated from four unknown,
unrelated contributors.
Id at 73, 125-26.

20

B.

The FBI’s Post-Trial Confession of Error

After Appellant had been sentenced and while his appeal was pending, the
government disclosed, by means of a letter authored by the FBI’s Office of
General Counsel (“OGC”), that Examiner Ames had testified erroneously
regarding the likelihood, stated as a ratio, that Appellant was a contributor of DNA
to the handgun and the wig. (Doc. 172-1). In particular, the FBI related that:
[A] likelihood ratio is a statistic applied to the evidence profile(s) that
assists the court or jury in evaluating the evidentiary weight of the
DNA results. The meaning of a likelihood ratio statement can change
if not stated precisely or if inadvertently transposed. For example, a
likelihood ratio of 1000 means the DNA results are 1000 times more
likely if the person of interest is a contributor than if an unknown,
unrelated individual is a contributor, not that it is 1000 times more
likely that the individual is a contributor to the DNA evidence rather
than an unknown, unrelated individual.
Id. at 1.
The FBI further identified the following deviations by Examiner Ames with
regard to the hypothetical and substantive likelihood ratios she stated, followed by
how these ratios should have been characterized:
Transcript Page 73, Line 18: “That would mean that the DNA
results from the knife handle were 1 million times more likely
that Erica Ames is the contributor as opposed to if - from
someone unknown or unrelated.” Whereas the preferred
statement would be: That would mean that the DNA results
from that knife handle were 1 million times more likely if Erica
Ames is the contributor as opposed to if they were from
someone unknown or unrelated.

21

Transcript Page 75, Line 14: “So that means that the DNA
profile from the wig is 480,000 times more likely that Appellant
and two unknown, unrelated individuals are contributors as
opposed to originally from three unknown individuals.”
Whereas the preferred statement would be: So that means that
the DNA profile from the wig is 480,000 times more likely if
Appellant and two unknown, unrelated individuals are
contributors as opposed to if they originated from three
unknown individuals.
•

Transcript Page 126, Line 3: “So that means that the DNA from
the gun is 4.6 million times more likely that Appellant was a
contributor of three unknown, unrelated contributors as
opposed to if they originated from four unknown, unrelated
contributors.” Whereas the preferred statement would be: So
that means that the DNA from the gun is 4.6 million times more
likely if Appellant was a contributor with three unknown,
unrelated contributors as opposed to if they originated from
four unknown, unrelated contributors.

Id. at 2 (emphasis in original).
C.

The District Court’s Order on Appellant’s New Trial Motion

After obtaining a stay from this Court, Appellant moved the District Court
for a new trial pursuant to Federal Rule of Criminal Procedure 33 based on the
FBI’s confession of error related to its DNA examiner’s testimony, which
Appellant contended constituted newly discovered evidence. (Doc. 172). Because
erroneous testimony by an FBI DNA expert offered by the government to prove
identity at trial - and therefore liability for crushing, mandatory minimum
sentencing - epitomizes the type of after-acquired evidence facially implicating the
interests of justice, Appellant remains entitled to a new trial.

22

To secure a new trial based on newly discovered evidence, a movant must
establish: (1) the evidence was discovered after trial; (2) the failure to discover the
evidence was not due to a lack of due diligence; (3) the evidence is not merely
cumulative or impeaching; (4) the evidence is material to issues before the court;
and (5) the evidence is of such a nature that a new trial would probably produce a
different result. United States v. Barsoum, 763 F.3d 1321, 1341 (11th Cir. 2014).
Following briefing on the merits, (Docs. 172, 176 and 179), the District
Court correctly concluded that Appellant had satisfied the first four elements of the
foregoing Rule 33 standard. In finding that the examiner’s errors were discovered
post-trial and could not have been discovered earlier through an exercise of due
diligence, the District Court found that
[Tjhere is no indication that Caldwell or his counsel knew at the time
of trial that the Examiner’s testimony deviated from the FBI’s
recommended language. This Court has not located any state or
federal court decision referencing the FBI’s recommended language to
be used when describing DNA likelihood ratios. Nor has the Court
located any public FBI or United States Department of Justice
(“DOJ”) document providing this recommended language. The United
States tendered, and the Court qualified, the Examiner as an expert in
the field of forensic DNA analysis. Caldwell and his counsel could not
reasonably be expected to object to or cross-examine the Examiner on
deviations from the FBI’s recommended language that the FBI’s
General Counsel’s Office found during a subsequent internal review.
(Doc. 180 at 9 (quotations and record citation omitted)); see generally United
States v. Frazier, 387 F.3d 1244, 1262 (11th Cir. 2004) (holding that a failure to
object to the substance of expert testimony at the time it is offered in evidence is
23

far more readily excused for cause because, by definition and by rule, it is beyond
the ordinary understanding of the average individual).
The likelihood ratio testimony proffered by Examiner Ames, whom the
Court received as a DNA profiling expert, was just that - expert testimony. Neither
Appellant’s counsel, nor, for that matter, the District Court or the government’s
counsel, are trained DNA forensic experts. Accordingly, Appellant and his counsel
could not reasonably be expected to object to a technically sophisticated series of
errors that no one identified until the FBI’s OGC reviewed the transcript of
Examiner Ames’ testimony (suggesting that such testimonial errors may not be
unique to this prosecution).
The District Court further correctly found that the examiner’s errors were
not merely cumulative or impeaching: “Three times - once when giving an
example, and twice when discussing physical evidence - the Examiner incorrectly
stated the likelihood ratio. Stating the likelihood ratio using the word ‘that’ instead
of‘if ‘technically changes the meaning.’” (Doc. 180 at 10). Similarly, the District
Court properly found the examiner’s errors to be material because, once again,
“incorrectly stating [a] likelihood ratio changes its meaning.” Id. at 11. Indeed, the
District Court appropriately reasoned that the examiner’s erroneous testimony was
plainly material insofar as the FBI’s OGC had elected to bring it to the
government’s attention. Id. at 12.

24

h

D.

The DNA Examiner’s Erroneous Testimony Was Prejudicial

Per the FBI’s own post-conviction concession, Examiner Ames was
permitted to state a likelihood ratio regarding Appellant’s contribution of DNA to
each mixture of DNA the FBI Lab examined only if she further testified that the
stated likelihood ratio assumes Appellant’s contribution of DNA along with 2 or 3
(depending on the total number of presumed contributors) other unknown,
unrelated contributors.1 (Doc. 172-1). But she did not do this. Rather, she
effectively testified that it was orders of magnitude more likely - indeed, 480,000
times more likely in the case of the wig and 4.6 million times more likely in the
case of the handgun - that Appellant was a contributor of DNA to the mixtures at
issue than if the DNA had originated from 3 or 4 otherwise unknown, unrelated
contributors.
Accordingly, Examiner Ames failed to testily correctly - and hence she
testified prejudicially - that a DNA likelihood ratio merely compares the likelihood
of Appellant having been one of a set of multiple contributors to a mixed DNA
sample with the likelihood of this same DNA profile appearing in an entirely
random mixture of DNA. Instead, she offered testimony that it was exponentially

1 The DNA extracted from the government’s physical evidence at trial - namely,
the handgun, the wig, and the bandana - involved mixtures of DNA from multiple
contributors. As a result, the FBI Lab presumed the existence of either 3 or 4
separate contributors of DNA to each item of evidence. (Doc. 164 at 92-94 and
124-125).
25

more likely that Appellant was a contributor of DNA to the mixtures at issue than
if the DNA had originated from multiple unknown, unrelated contributors.
The implication being that Examiner Ames advised the jury to consider the
DNA test results in terms of the overall likelihood that Appellant’s DNA was on
the criminal implements, rather than properly explaining that the numbers she cited
related solely to the likelihood - stated as a ratio - of whether he was one of three
or four contributors to a DNA mix versus an entirely random mix of three or four
DNA contributors. In short, when describing the likelihood of Appellant having
contributed DNA to the most important physical evidence in this case, Examiner
Ames left out the qualification that she was talking solely about a ratio.
It follows that this evidence is both material and potentially outcome
determinative. See, e.g., Barsoum, 763 F.3d at 1341 (noting that, to warrant a new
trial under Rule 33, newly discovered evidence need only have a probability of
producing a different result); see also Snowden v. Singletary, 135 F.3d 732, 737
(11th Cir. 1998) (“A denial of fundamental fairness occurs whenever the improper
evidence is material in the sense of a crucial, critical, highly significant factor.”)
(internal citations omitted). Indeed, the fact that the FBI, acting through its OGC,
elected to disclose the errors in Examiner Ames’ likelihood ratio testimony
affirmatively demonstrates their materiality and perceived impact on the jury.
Moreover, the District Court, echoing the FBI’s OGC, found multiple times in

26

evaluating Appellant’s new trial motion that incorrectly stating a likelihood ratio
with respect to a known individual’s contribution of DNA to a sample containing a
mixture of DNA profiles necessarily changes its meaning.2 (Doc. 180 at 10-11).
The government’s physical and eyewitness evidence linking Appellant to the
NOA Bank robbery was comparatively limited when compared to its evidence
relating to the BOA robbery. The NOA Bank robber’s identity was concealed
throughout, the surveillance videos and stills of the robbery were both dark and
grainy, and, quite understandably, the bank employees testified as virtually all
bank personnel do in the case of armed bank robberies: they focused singularly on
the fact that the robber brandished a handgun - the identifying characteristics of
which, again quite understandably, they had difficulty articulating - and very little
else. (See Doc. 164 at 138-141, 144-46, 147-151, and Doc. 119-55-58). As a result,
the government proffered its DNA expert not only to make its case that Appellant
2 In this regard, Examiner Ames correctly stated that the DNA profile from the
mixed sample found on the bandana was 700 billion times more likely if Appellant
was one of multiple contributors of DNA to the sample than if the contributors
were entirely unknown or unrelated - meaning that, because 700 billion is
approximately 100 times the population of the Earth, she could conclude that
Appellant was a contributor of DNA to the mixed DNA sample collected from the
bandana. (Doc. 164 at 74-75). But this proves the point. Examiner Ames did not
testify - as with the wig and pistol - that Appellant’s contribution of DNA to the
mixed sample made the DNA profile 700 billion times more likely. Rather, she
concluded that the profile was 700 billion times more likely ifAppellant was a
contributor of DNA than if an entirely unrelated and unknown population of
contributors existed. Id. This is a critical distinction that she improperly collapsed
with respect to her likelihood ratio testimony regarding the wig and the handgun.
27

committed both robberies, but also, and more importantly, that Appellant had
committed the NOA Bank robbery when the government’s evidence related to this
bank robbery was otherwise largely circumstantial, or at least equivocal.
Indeed, Examiner Ames’ erroneous likelihood ratio testimony was clearly
material to the jury insofar as the jurors deliberated for several hours before
rendering their verdict. (See Doc. 113 (“Jury deliberations began at 11:00. Jury
took a working lunch at 12:00 and deliberated through lunch. Jury returned a
verdict at 2:15 p.m.”)). Given the pronounced disparity in the strength of the
evidence going to identity in relation to the two charged bank robberies, the only
reliable inference is that the jurors spent the majority of their deliberations
evaluating Appellant’s liability for the NOA Bank robbery and the brandishing
count in relation to that robbery, with the government’s DNA testimony forming a
principal evidentiary bridge between the second charged bank robbery and the
first.
In this regard, the United States Supreme Court has emphasized that “DNA
testing can provide powerful new evidence unlike anything known before. Given
the persuasiveness of such evidence in the eyes of the jury, it is important that it be
presented in a fair and reliable manner.” McDaniel v. Brown, 558 U.S. 120, 136
(2010) (internal citation omitted); see also, e.g., United States v. Barton, 909 F.3d

28

1323, 1338 (11th Cir. 2018) (noting that DNA evidence is extraordinarily powerful
at trial and, if offered imprecisely, can be “highly prejudicial”).
Examiner Ames advised the jury to consider the DNA test results in terms of
the likelihood that Appellant’s DNA was on the criminal implements. But she
should have explained that the numbers about which she testified related solely to
the likelihood - stated as a ratio - of whether Appellant was one of three or four
contributors to a mix of DNA found on each of the items of evidence she
examined. In short, when describing the likelihood of Appellant having contributed
DNA to the most important physical evidence in this case, Examiner Ames left out
the qualification that she was talking solely about a ratio. The effect of this was to
suggest to the jury that it was exponentially more likely that Appellant was a
contributor of DNA to the wig and handgun, each of which involved a mixture of
DNA, such that it was incumbent upon Examiner Ames to account for this fact which corresponds to a ratio, not an absolute figure — in her testimony.
Errors in DNA evidence are inherently prejudicial. As an initial matter, the
government attempted before the District Court to make much of the fact that the
FBI described the deviations as “minor,” arguing that the FBI’s disclosure does
nothing more than qualify the expert’s testimony by identifying instances where
Examiner Ames “used the word ‘that’ three times when the word ‘if was
recommended.” (Doc. 176 at 16). But this is precisely the point. When Examiner

29

Ames said “that” about the likelihood of Appellant’s contribution of DNA to the
questioned items of evidence, the unavoidable conclusion is that she was referring
to Appellant as the sole
the predicate “if,” the

contributor of DNA. Had she qualified her testimony with

inference would have been that she was referring to the

likelihood (again, stated as a ratio) that Appellant was one

of several contributors

of DNA to a mixture found on each implement.
More broadly, this grossly understates the enormous potency of DNA
evidence - namely, the mischaracterization of DNA evidence

- in the courtroom.

Courts across the country have recognized the incontrovertible truth that “[t]he
. suggests that this type of
stron g and largely invariant impact of DNA evidence . .
scientific evidence may be so persuasive that its mere introduction in a criminal
case is sufficient to

seriously impede defense challenges.” People v. Wright, 2012

ILApp (1st) 073106,1 96

, 971 N.E.2d 549, 570 (citation omitted); People v.

Wright, 25 N.Y.3d 769, 7B4, 37 N.E.3d 1127, 1137 (2015) (quoting same).
Deviations in expert testimony may be “minor” in some circumstances;
however, when applied in the context of DNA expert testimony
of defmitiveness

, “[A] mystical aura

often surrounds the value of DNA evidence” such that technical

also Brown, 558 U.S. at 136. Perhaps
precision is of paramount importance . Id, see
most tellingly, the FBI’s

decision to disclose the errors in Examiner Ames’

testimony, at the behest of its Office o

f General Counsel, belies the notion that they

30

were somehow immaterial to Appellant’s case. The disclosure itself demonstrates
the materiality of Examiner Ames’ DNA testimony as it was presented at trial and
its self-acknowledged impact on the jury.
In sum, the FBI’s disclosure effectively concedes that the DNA evidence
supposedly linking Appellant to the charged offenses was not presented to the jury
in the most fair and reliable manner. (See Doc. 172-1 (“The meaning of a
likelihood ratio statement can change if not stated precisely or if inadvertently
transposed.”)). This is particularly the case when the erroneous testimony
implicates mistakenly stated likelihood ratios amounting to 480,000 times with
respect to the wig and 4.6 million times with respect to the handgun (the latter of
which the government asserted was used in both bank robberies). Because this is a
far cry from the evidentiary guardrails actually governing Examiner Ames’
testimony - namely, that these likelihood statistics simply go to whether it is more
likely that Appellant was in a group of DNA contributors that included him, as
opposed to a group made up entirely of unknown, unrelated contributors that does
not include him - the District Court erred in denying Appellant’s motion for a new
trial.
II.

The District Court Erred in Denying Appellant’s Motion to
Suppress an Unduly Suggestive and Prejudicial Show-Up
Following his arrest for the BOA robbery, the Smyrna, Georgia Police

Department elected to conduct a show-up identification procedure in which the
31

victim teller was transported by a police detective to the scene of Appellant’s
arrest, at which time she identified Appellant as having the same height, build, skin
tone, and race as the BOA robber, and that he was wearing a similar t-shirt. (Doc.
162 at 92-93 and 96, Doc. 163 at 107-11). The show-up involved Appellant being
removed, in handcuffs, from the back of a police vehicle and shown to the victim
teller while she sat in the detective’s car approximately two houses away with her
identity concealed by a strobe light. Id. Because Appellant had identified himself
to the police by name at the time of his arrest, this show-up affirmatively linked
him to the BOA robbery, which is why the government offered the teller’s
identification at trial.
Accordingly, Appellant filed a pre-trial motion to exclude this
unconstitutionally obtained evidence, (Doc. 34), which was followed by an
evidentiary hearing before the Magistrate Court. Despite acknowledging that
single-person show-ups, like the one used here to establish probable cause to arrest
Appellant, are “widely condemned,” the Magistrate Court recommended that the
teller’s identification of Appellant should not be suppressed because the single­
person show-up on which it was based - a show-up in which the police had
transported the witness to the scene of an arrest and the subject of the identification
was, in the witness’s plain view, removed from the back of a squad car in
handcuffs - was neither unduly suggestive nor unreliable. (Doc. 60 at 17-18).

32

The District Court overruled Appellant’s objection, (Doc. 78), to the
Magistrate Court’s recommendation that Appellant’s motion to suppress should be
denied, (Doc. 84 at 3-7). This ruling, however, was - and remains - erroneous,
particularly insofar as it premised on the permissibility of show-ups in exigent
circumstances to establish probable cause to arrest, yet here, as the Magistrate
Court concluded following a full suppression hearing, the police had sufficient
probable cause to make an arrest based on other facts. (See Doc. 60 at 12 (noting
the fact that, within minutes of the BOA robbery, Appellant had been found hiding
in a residential neighborhood approximately a quarter mile away, that within a few
more minutes the police had recovered the robbery bag in close proximity to where
Appellant had been hiding, which contained all of the criminal implements in
issue, and that, within approximately 30 minutes of having apprehended Appellant,
the police had viewed still images from the BOA surveillance videos establishing
that Appellant was wearing the same Steelers t-shirt as the BOA robber “overwhelmingly establish probable cause to arrest”)).
Due Process authorizes suppression of in-court identification testimony that
is tainted by out-of-court error. Jones v. Kemp, 794 F.2d 1536, 1539 (11th Cir.
1986). This implicates a two-step inquiry: (1) whether law enforcement’s
identification procedures were unduly suggestive; and (2) whether, under the
totality of the circumstances, the identification was reliable. Neil v. Biggers, 409

33

U.S. 188, 198-200 (1972); United States v. Diaz, 248 F.3d 1065, 1102 (11th Cir.
2001). The Supreme Court has made clear that “reliability ... is the linchpin,”
such that, “[w]here the ‘indicators of [a witness’s] ability to make an accurate
identification’ are ‘outweighed by the corrupting effect’ of law enforcement
suggestion, the identification should be suppressed.” Perry v. New Hampshire, 565
U.S. 228, 239 (2012). It follows that suppression is required where the police have
engaged in unduly suggestive identification procedures that, on their face, taint the
reliability of victim identification.
The identification at issue here was a single-person show-up that occurred
after the police had removed Appellant from a police vehicle in handcuffs and,
further, while he was at all times surrounded by police officers and police cars at
the scene of an arrest. (Doc. 162 at 92-93 and 96, Doc. 163 at 107-11, Doc. 40 at
144_45? and Doc. 44 at 208-09.) These circumstances alone strongly dictated to
any witness that the police conclusively viewed Appellant as a suspect, thereby
demonstrating the identification procedures employed by law enforcement to be
unduly suggestive. See Key v. McNeil, 2010 WL 5811581 (N.D. Fla. Dec. 27,
2010) (“An unduly suggestive show-up is one engineered by the police and made
to suggest to the witness that the person to be viewed is a suspect.”).
Indeed, this Court has suppressed far less suggestive scenarios that involve
single-photograph identifications because they are “[some] of the most suggestive

34

methods of identification and [are] always to be viewed with suspicion.” Hudson v.
Blackburn, 601 F.2d 785, 788 (5th Cir. 1979); see also United States v. Cueto, 611
F.2d 1056, 1063 (5th Cir. 1980) (holding that an identification procedure is unduly
suggestive where a witness was shown one photograph of the defendant); United
States v. Mcintosh, No. 1:15-CR-194-WSD, 2016 WL 2984263, at *3 (N.D. Ga.
May 24, 2016) (holding that identification procedure was unnecessarily suggestive
where identification was made upon viewing a single photo and “there was no
reason why [the witness] could not have been shown a multiple-photo array to
make a less suggestive identification”).3
While the District Court rejected this line of authority as inapposite, (Doc.
84 at 6), the same rationale supporting suppression of single-photo identifications
clearly applies to single-person show-ups, especially where, as here, the lone
suspect is handcuffed and surrounded by law enforcement. Further, despite the
District Court’s criticism that Appellant had failed to point to “controlling case in
which a show-up under similar circumstances has been found to be unduly
suggestive,” id., this is more likely due to the fact that police rarely if ever conduct
a show-up when, as found by the Magistrate Court here, no exigent circumstances

3 Decisions of the Fifth Circuit rendered on or before September 30, 1981, are
binding precedent in the Eleventh Circuit. Bonner v. City of Prichard, 661 F.2d
1206, 1209 (11th Cir. 1981).
35

existed and the facts establishing probable cause to arrest separate from a victim
witness’s identification were “overwhelming,” (Doc. 60 at 12).
In this regard, the single-person show-up in this case was completely
gratuitous and unnecessary. There is no reason why, having already arrested
Appellant based on probable cause that the Magistrate Court conclusively found
existed separately from the show-up, id., the police could not have taken Appellant
back to the police station to conduct a traditional line-up. Indeed, he was held for
nearly two hours at the Smyrna jail, (Doc. 39 at 102), more than ample time to
conduct a constitutionally compliant identification process.
In recommending denial of Appellant’s suppression motion, the Magistrate
Court suggested that single-person show-ups are necessary to “allow identification
before the suspect has altered his appearance and while the witness’s memory is
fresh and [to] permit the quick release of innocent persons.” (Doc. 60 at 16). But
the show-up in this case was unnecessary to satisfy any of these concerns. Because
Appellant was already in police custody (again, based on probable cause that the
Magistrate Judge confirmed was legally sufficient to support his arrest), there was
absolutely no risk he could have altered his appearance.
And, given the victim teller’s high-level description of the bank robber, there
was also little risk that her memory would have eroded if the show-up had been
postponed in favor of a traditional, multi-person line-up or photo array. The

36

substance of her general description of the BOA robber - i.e., his race, gender,
height, build, etc. - were simply unlikely to be forgotten with the passage of an
hour or two. It is also quite clear that law enforcement did not use the show-up for
its intended purpose, as a tool to release someone caught up in exigent
investigative circumstances, but rather as an illegal technique to further
Appellant’s subsequent prosecution.
These combined circumstances demonstrate conclusively that the
identification procedures employed by the police here were unduly suggestive. See,
e.g., United States v.

Woodward, 229 F.3d 1134, 1136 (1st Cir. 2000) (“[T]he

procedure was impermissibly suggestive. Even though Woodward was already in
custo

dy and could easily have been taken to the police station for a line-up

identification, he was singled out in handcuffs to Evans . . .
Brownlee, 454 F.3d 131
and the witnesses

United States v.

, 138 (3rd Cir. 2006) (“[T]here is no reason why Brownlee

could not have been taken to the police station for a less

suggestive line-up or photo array.
(8th Cir. 1982) (“We

”); United States v. Hadley, 671 F.2d 1112, 1115

acknowledge that show-ups are inherently suggestive and

ordinarily cannot be condoned when a line-up procedure is readily available.”).
Beyond its suggestiveness, the teller s identification of Appellant was also
is reliable, courts
unreliable To determine whether an out-of-court identification
generally apply the “totality of the circumstances ” standard set forth in Stovall v.

37

388 U S. 293 (1967), which includes consideration of the following

Denno,
factors:

(1) the opportunity of the witness to view the criminal at the time of
the offense, (2) the witnesses] degree of attention, (3) the accuracy of
any prior description by the witness, (4) the level of certainty
demonstrated by the confrontation, and (5) the time between the
occurrence of the crime and the confrontation.
Manson v. Braithwaite, 432 U.S. 98, at 114 (1977).
The record here demonstrates that the teller s identification of Appellant was
anything but reliable. She testified at trial and during the underlying suppression
hearing that she only had a brief opportunity to view the bank robber during the
robbery and was performing several tasks during the robbety that would have
taken her attention away from the robber, including looking down at her keyboard
and her drawer and looking at the robber’s firearm. (Doc. 44 at 205-06.) The
bank’s

surveillance cameras confirm this - according to the time-stamped

in front of the teller for less than 35 seconds,
surveillance footage, the robber was m
at which time he was wearing a mask and most of his body was obscured by a
chest-high counter between the teller and the robber. Id. at 207 , 213-14, and 230.
The description given by the teller was very broad and did not mention any
immutable characteristics other than the race and gender and the general height and
build of the

robber. (Doc. 44 at 209). She also did not demonstrate a high level of

certainty in her description and, in fact, did not really even identify Appellant at

38

all, but rather merely compared him to her general description of the bank robber.
Id. at 228. Further, at the time of the show-up, the teller was sitting in the back seat
of a law enforcement vehicle some 75 or more feet away from Appellant and was
viewing Appellant through the front windshield of that vehicle, (Doc. 40 at 144),
making it more than likely that she could not have ascertained any details other
than Appellant’s general height, build, and race from this vantage point.
For each of these reasons, the very few “indicators of [the witness’s] ability
to make an accurate identification” are outweighed heavily ‘“by the corrupting
effect’ of law enforcement suggestion.” Perry, 565 U.S. at 239. As a result, the
District Court erred in failing to exclude the show-up identification from trial.
III.

The District Court Erred in Denying Appellant’s Motion for a
Judgment of Acquittal With Respect to Count Three of the
Superseding Indictment
To convict Appellant on Count Three of the superseding indictment, the

government was required to introduce sufficient evidence from which a reasonable
jury could find beyond a reasonable doubt that when the BOA branch was robbed
on September 7, 2016, its deposits and accounts were insured by the Federal
Deposit Insurance Corporation. Because the government failed to put on sufficient
evidence of the BOA branch’s FDIC-insured status at trial, the District Court erred
by denying Appellant’s motion for judgment of acquittal on Count Three.

39

While the insured status of a national bank may appear to be self-evident,
federal appellate courts have cautioned that the government must provide
competent proof of this element and have criticized lackadaisical efforts to do so at
trial. See, e.g., United States v. Brown, 616 F.2d 844, 849 (5th Cir. 1980) (noting
that “[w]e have difficulty comprehending why the Government repeatedly fails to
prove this element more carefully” and citing a “national deficiency” in the
government’s proof of FDIC-insured status). In United States v. Sandies, 469 F.3d
508 (6th Cir. 2006), for example, the Sixth Circuit vacated a defendant’s bank
robbery conviction, finding that a bank security officer’s testimony that the bank
was insured, combined with introduction of the FDIC certificate into evidence, was
insufficient to prove the FDIC-insured status of the bank at the time of the robbery.
Id. at 515 (6th Cir. 2006).
Although the security officer in Sandies testified that she had personal
knowledge of the bank’s insured status because she (1) had seen the FDIC
certificate at the bank, (2) knew that the bank had been insured for over twentythree years, and (3) had viewed the stickers at the bank’s deposit windows holding
the bank out as insured, the court of appeals concluded that the government
“simply did not establish a proper foundation for [the security officer’s]
testimony.” Id. The court further concluded that the bank’s insured status as of the
date of the FDIC certificate - more than twenty years before the robbery - did not

40

establish that the bank’s deposits were insured at the time of the robbery, and,
moreover, it was circular and inappropriate to rely on knowledge that the bank was
insured at some time in the past as foundation for personal knowledge of this fact.
Id.
Here, the insufficiency and lack of foundation of the government’s evidence
as to the BOA branch’s federal insurance status was even more pronounced. The
only document admitted into evidence on this issue was the FDIC insurance
certificate for “Bank of America National Association” in Charlotte, North
Carolina, dated July 23, 1999. (Doc. 119-11). Thus, in addition to being dated
seventeen years before the bank robbery in the superseding indictment, there was
no reference on the certificate to the Smyrna, Georgia branch that was robbed.
Further, the government’s sole witness as to the BOA branch’s FDIC
insurance status, William Anderson, a Bank of America vice president for
corporate security, failed to connect the dots by establishing any personal
knowledge that the Smyrna branch was FDIC insured, or, if such insurance existed,
that it was in force at the time of the bank robbery. Indeed, Appellant’s crossexamination of Mr. Anderson included the following colloquy:
Q-

Well, I’m asking, we have a certificate of insurance that reflects Bank
of America N.A., in Charlotte. I’m asking you what evidences that the
Bank of America branch on South Cobb Parkway, that’s a part of this
trial, what evidences that that is covered by FDIC insurance?

A.

Because they all fall under this charter. That’s how it’s covered.
41

Q.

How do you know that?

A.

All our financial centers fall under this charter.

Q.

Have you - is there a particular policy from the FDIC that exists?

A.

There may be. I don’t know for sure.

Q-

So you don’t know for sure whether there is a particular policy from
the FDIC that pertains to Bank of America National Association?

A.

I wouldn’t call it a policy. I would call it a charter.

Q-

So the FDIC issues charters of insurance related to banking
institutions?

A.

It would issue a certificate, and our assets fall underneath that
certificate. And there are charters underneath that certificate.

Q.

Do you have the charters underneath that certificate with you, here in
court?

A.

I do not.

Q-

Were you asked to bring those to court, by the government?

A.

I was not.

(Doc. 164 at 17-18).
The government’s sole witness with respect to the BOA branch’s FDIC
insurance status further testified as follows:
Q-

Mr. Anderson, let me be very specific about this. You testified on
direct examination in relation to Government’s Exhibit 10 that
insurance was [in force], FDIC insurance was [in force] in relation to
Bank of America N.A., as of July 23, 1999; is that correct?
42

A.

Correct.

Q.

Is there a policy that exists reflecting that insurance? Is there
something other than this certificate from the FDIC that reflects that
insurance?

A.

Well, we’re required to make quarterly payments. And if you don’t
make those payments, then your insurance doesn’t enforce. And
we’ve made those payments, so our insurance has never lapsed.

Q.

I think that’s -1 think you answered a different question than I asked.
I’m asking whether there is documentation in the form of either a
policy -1 don’t know what the term of art would be - but a policy -

A.

Yes.

Q.

certificate, something reflecting insurance?

A.

Yes, there is.

Q.

And you do not have that with you?

A.

I do not.

Q.

And do you know if that document would reflect that the FDIC
insurance that’s applicable based on this certificate, which is
Government’s Exhibit 10, solely at the N.A. level, would apply to the
branch level?

A.

It would.

Q.

But you’re - what do you base that on? Is there a particular provision?

A.

I can only base it on, again, we are making quarterly payments for this
coverage; coverage has not lapsed. It continues to be [in force]. There
is a document, but I don’t have that with me today.

Q.

Let me ask you this. 1999 was approximately 19 years ago. What
evidence do you have that the policy remains [in force] other than that

43

you have a certificate from 19 years ago reflecting insurance is [in
force]?
A.

Well, we would have - we would show that we made payments to
show that this document is still [in force].

Q-

But do you have that evidence with you?

A.

I don’t.

Q-

And you don’t have any evidence of any other documentation other
than this loan certificate that reflects insurance?

A.

I do not.

Q.

And you don’t have any other documentation with you that would
show insurance down to the branch level within Bank of America?

A.

Not with me, no.

Q.

And you’re appearing here, I believe that the prosecutor Mr. Hobson
qualified you as a document custodian in this case, is that right?

A.

Yes.

Q.

So, really, as the document custodian, all you’re able to testify to are
business records that exist at Bank of America, isn’t that right?

A.

Yes.

Q.

So as the document custodian responsible for business records at the
Bank of America, you didn’t bother to bring a policy reflecting FDIC

THE COURT: When you’re talking about Bank of America, do you mean
the Bank of America N.A., or Bank of America branch?
[APPELLANT’S COUNSEL]: Bank of America N. A., for that question.
THE COURT: Well, because I couldn’t tell from your question.
44

[APPELLANT’S COUNSEL]: Yes.
Q.

So as a document custodian for Bank of America N.A., did you bring
a copy of the FDIC policy with you to court?

A.

No.

Q.

And would that policy reflect whether Bank of America, the Bank of
America branch at issue in this trial, was insured by the FDIC?

A.

Yes.

[APPELLANT’S COUNSEL]: That’s all I have, your Honor.
(Doc. 164 at 13-14).
Mr. Anderson’s testimony is thus a paradigm of the same circular proof
rejected in Sandies - i.e., that because the Smyrna branch was associated with
BOA, and BOA always seemed to be FDIC insured, it must have been FDIC
insured on September 7, 2016. See Sandies, 469 F.3d at 515 (“[T]he bank’s insured
status more than twenty years before the robbery does not establish that the bank’s
deposits were FDIC-insured at the time of Sandies’ robbery”). The government
could easily have introduced competent evidence of the BOA branch’s FDICinsured status at the time of the charged robbery, but it failed to do so. And its
proof at trial should have included proper documentation of effective FDIC
insurance and the testimony of a knowledgeable witness, but the government’s
evidence at trial was sorely lacking in this regard.

45

As a result, Appellant was entitled to entry of judgment of acquittal on
Count Three, and the District Court erred by denying his motion in this respect.

46

CONCLUSION
Based on the foregoing, Appellant respectfully submits that his convictions
and sentencing on these convictions should be vacated because the District Court
illegally erred in denying (i) his motion for new trial, (ii) his motion to suppress
identification testimony that was the product of an unconstitutional show-up, and
(iii) his motion for judgment of acquittal as to Count Three of the superseding
indictment.
Respectfully submitted, this 24th day of July, 2019.

/s/ Paul N. Monnin
Paul N. Monnin
Georgia Bar No. 516612
paul.monnin@alston.com
ALSTON & BIRD LLP
1201 West Peachtree Street, NE
Atlanta, GA 30309-3424
Telephone: (404) 881-7000
Facsimile: (404) 881-7777

Attorney for Appellant

47

CERTIFICATE OF COMPLIANCE
I hereby certify that the foregoing motion complies with the type-volume
limitations provided in Fed. R. App. P. 28.1(e) and Fed. R. App. P. 32(a)(7). The
foregoing motion contains 10,446 words and was prepared using Times New
Roman (14 point) proportional type.
CERTIFICATE OF SERVICE
I certify that on July 24, 2019,1 electronically filed this Appellant’s Brief
with the Clerk of Court for the United States Court of Appeals for the Eleventh
Circuit by using the CM/ECF system, which will automatically provide a copy of
this filing to all counsel of record.
This 24th day of July, 2019.

/s/ Paul N. Monnin
Paul N. Monnin
Georgia Bar No. 516612
paul.monnin@alston.com
ALSTON & BIRD LLP
1201 West Peachtree Street, NE
Atlanta, GA 30309-3424
Telephone: (404) 881-7000
Facsimile: (404) 881-7777
Attorney for Appellant

48

